<html>
<title> - PREPARING FOR EMERGENCIES: IS NORTHERN NEW JERSEY READY?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
        PREPARING FOR EMERGENCIES: IS NORTHERN NEW JERSEY READY?

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                         PREPAREDNESS, SCIENCE,
                             AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 26, 2006

                               __________

                           Serial No. 109-88

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                    U.S. GOVERNMENT PRINTING OFFICE
34-386                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012007

                                     

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
34-386                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012007


                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

     SUBCOMMITTE ON EMERGENCY PREPAREDNESS, SCIENCE, AND TECHNOLOGY

                 Dave G. Reichert, Washington, Chairman

Lamar S. Smith, Texas                Bill Pascrell, Jr., New Jersey
Curt Weldon, Pennsylvania            Loretta Sanchez, California
Rob Simmons, Connecticut             Norman D. Dicks, Washington
Mike Rogers, Alabama                 Jane Harman, California
Stevan Pearce, New Mexico            Nita M. Lowey, New York
Katherine Harris, Florida            Eleanor Holmes Norton, District of 
Michael McCaul, Texas                Columbia
Charlie Dent, Pennsylvania           Donna M. Christensen, U.S. Virgin 
Ginny Brown-Waite, Florida           Islands
Peter T. King, New York (Ex          Bob Etheridge, North Carolina
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Dave G. Reichert, a Representative in Congress For 
  the State of Washington, and Chairman, Subcommittee on 
  Emergency Preparedness, Science, and Technology................     1
The Honorable Charlie Dent, a Representative in Congress For the 
  State of Pennsylvania, Subcommittee on Emergency Preparedness, 
  Science, and Technology........................................     3
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  For the State of New Jersey....................................     3

                               WITNESSES

Jerry Speziale, Sherriff, Passaic County, New Jersey:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
Armando Fontoura, Sheriff, Essex County, New Jersey:
  Oral Statement.................................................     7
  Prepared Statement.............................................    10
Michael Postorino, Fire Chief, City of Paterson, New Jersey:
  Oral Statement.................................................    12
  2Prepared Statement............................................    14
Joseph Rotonda, Chief of Police, Township of Belleville, New 
  Jersey
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Richard Canas, Director, Office of Homeland Security and 
  Preparedness
  Oral Statement.................................................    20
  Prepared Statement.............................................    22
Walter Gramm, Executive Director, New Jersey Business Force, 
  Business Executives for National Security:
  Oral Statement.................................................    36
  Prepared Statement.............................................    38
Steve Kempf, Regional Director, Region II, Federal Emergency 
  Management Agency, Department of Homeland Security:
  Oral Statement.................................................    39
  Prepared Statement.............................................    41
Timothy Beres, Director, Preparedness Programs Division, Office 
  of Grants and Training, Department of Homeland Security:
  Oral Statement.................................................    46
  Prepared Statement.............................................    48


        PREPARING FOR EMERGENCIES: IS NORTHERN NEW JERSEY READY?

                              ----------                              


                         Monday, June 26, 2006

              U.S. House of Representatives
            Subcommittee on Emergency Preparedness,
                                   Science, and Technology,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 11 a.m., in the 
Auditorium of Passaic County Public Safety Academy, 300 Oldham 
Road, Wayne, New Jersey, Hon. Dave Reichert chairman of the 
Subcommittee presiding.
    Present: Representatives Reichert, Dent and Pascrell.
    Mr. Reichert. Well, good morning.
    Before I gavel, I just want to say just a couple of quick--
can you hear me in the back OK? Great. I used to be, I was the 
Sheriff in Seattle the last eight years, this is my first term 
in Congress, I was a Deputy Sheriff for 33 years, and so it's a 
pleasure to be here with you today.
    I've learned that there's a certain formality about 
hearings in Washington, D.C., and that it can make people 
nervous, and especially the witnesses when they start to get 
quizzed, but I know they all know Bill, and he's such a soft, 
easy-going guy that nobody is going to be nervous. But, I just 
kind of wanted to say that we want to make this relaxing and 
comfortable. We want to make this a discussion with the group, 
and I know that's the way Bill would like it, too. It's just 
wonderful to be in your community and have a chance to be here. 
It's a great opportunity to learn about what you are doing as 
far as planning and training, and in communications in regards 
to responding to emergencies.
    And, I know now you are dealing with some flooding in your 
neighborhood, because I got in late this morning, early this 
morning about 2:00 in the morning, so I slept in my suit.
    All right. This hearing of the Homeland Security 
Subcommittee on Emergency Preparedness, Science and Technology 
will come to order. The Subcommittee will hear testimony today 
on preparing for, and responding to, and preventing terrorist 
attacks, and natural disasters and other emergencies.
    I would like to thank everyone, the witnesses and the 
public, for attending this morning's important hearing, and 
then they give me a formal written statement to read, so you'll 
just all be excited about hearing about this.
    I would like to thank Mr. Pascrell, that's the most 
important piece in this whole statement that I'm going to make 
today, because we are working as a team. I think that a lot of 
people wonder whether or not the Democrats and Republicans can 
team up together and actually succeed in their efforts in 
Congress, and I think Bill and I are a team that's been able to 
do that. We are moving some important legislation, and for the 
past five months have been working on some important 
legislation that we hope to see on the floor in the next few 
weeks.
    But, I thank Bill for his friendship and his guidance and 
support in working for America, and that's what he does.
    This is the second field hearing we've done together, with 
the first one being in my home district, which is in Washington 
State, which borders the City of Seattle. Although Bill and I 
hail from opposite coasts and belong to different political 
parties, we, nonetheless, share a common vision for a safer 
America.
    There are few members of Congress as passionate as Bill on 
issues to homeland security, and as one of the few former 
Mayors serving in the House of Representatives Bill brings 
leadership and expertise on the needs and concerns of those in 
the front lines of our first responders.
    Bill and I have been working on comprehensive legislation 
to fix the most serious deficiencies within our National 
Disaster Response System, as made evident by the government's 
poor response to Hurricane Katrina last year.
    Since taking over as Chairman of the Subcommittee, we've 
held five hearings on interoperability and emergency 
communication. As a first responder myself for over 30 years in 
law enforcement and the former Sheriff of King County in 
Washington, I know the importance of having situational 
awareness in the field when responding to an event.
    I was proud to work with Bill in drafting H.R. 5351, the 
National Emergency Management Enhancement Act of 2006. This 
legislation will, among other things, establish an Office of 
Emergency Communication and consolidate the SAFECOM program, 
the Integrated Wireless Network Project, and the Interoperable 
Communications Technical Assistance Program within this new 
office.
    It was clear from witness testimony during our hearings for 
the need to hold one person accountable for interoperable 
communications in the Department of Homeland Security. H.R. 
5351 will also make much needed structural improvements to 
FEMA, but keep it within the Department of Homeland Security.
    As many of you know, there is an ongoing debate whether to 
remove FEMA from the Department of Homeland Security. This 
legislation will restore the nexus between preparedness and 
response, give FEMA direct reporting authority to the President 
during a catastrophic event, and put safeguards in place to 
prevent the Secretary of Homeland Security from taking vital 
resources away from FEMA.
    I am proud to say this legislation has strong backing, and 
the first responder community groups supporting this 
legislation include the National Sheriffs Association, the 
International Association of Firefighters, the National 
Volunteer Fire Council, and countless others. We worked with 
all these groups in drafting this legislation, and it 
represents a 21st Century approach to emergency management.
    The purpose of this hearing is to help us gain a more 
thorough understanding of what Congress can do to better assist 
New Jersey, and the region, and their efforts to enhance it's 
all hazards preparedness. Specifically, we will examine the 
state of the region's coordination, cooperation, and the 
planning for catastrophic events, whether manmade or natural, 
and how well the Department of Homeland Security is working 
with your state and our states across this country and local 
governments.
    The Department of Homeland Security recently announced 
their grant awards for Fiscal Year 2006, and while Jersey City, 
Newark area, saw an increase in urban area security initiative 
funding there has, nonetheless, been much controversy 
surrounding these grants, including the use of the new peer 
review system.
    As the Subcommittee and Congress, with direct oversight of 
first responder grants, I'm hopeful the controversy surrounding 
these recent grant announcements will bring the Senate to the 
table to finally pass the faster, smarter funding for the First 
Respondents Act. Congress needs to continue to show strong 
support and strong oversight for the Department of Homeland 
Security, and this needed legislation will make first responder 
grants truly risk-based.
    We are fortunate to have the opportunity to hear from so 
many hard working, dedicated and expert public servants on the 
state of our emergency preparedness. Your appearance today is 
vitally important to the work of the Subcommittee, and no doubt 
the Department, and to the country, and I'd like to thank our 
witnesses and audience for being with us today.
    Before we proceed any further this morning, as Chairman I 
need to take care of some housekeeping issues. Because this is 
an official congressional hearing, as opposed to a town hall 
meeting, we must abide by certain rules of the Committee on 
Homeland Security, as well as the House of Representatives. 
Therefore, I kindly ask that there be no applause of any kind 
or any kind of demonstration with regard to any testimony, and 
it is important that we respect the decorum and the rules of 
the Committee of the House, and thank you in advance for your 
understanding, and the Chair now recognizes the Ranking Member 
of the Subcommittee, Mr. Pascrell.
    Mr. Pascrell. Thank you very much. Here comes our brother 
from Pennsylvania. He just came through the water and the rain. 
Welcome aboard, Congressman Dent.
    Mr. Reichert. It's good to have you here.
    Mr. Dent. Thank you, Mr. Chairman.
    Mr. Reichert. He was escorted in by the Sheriff.
    Mr. Pascrell. That's right, escorted by Sheriff Speziale, 
very good.
    I want to begin today by, I want to thank some people. This 
is a pretty big thing when a congressional hearing is not in 
Washington, it's in part of the country, because there's a lot 
of things--bureaucracies, you have to put together, you just 
don't say let's have a hearing and it happens. It doesn't work 
that way.
    I want to thank the President of the Passaic County 
Community College, Steve Rose, for permitting us to be here, 
the Deputy Chief, Tom Lyons, for setting up the hearing, the 
Passaic County Sheriff, Jerry Speziale, and his department for 
handling all transportation for today, our Passaic County 
Prosecutor, James Vigliano, all of our police and fire chiefs 
who are attending, many of them are here, all of the police, 
fire and EMS that are here.
    Just a few moments ago, we went over to the fire house and 
saw the recruits that are here at the Fire Academy. Freeholder 
Terry Duffy was kind enough to shake loose from his important 
schedule, busy schedule, New Jersey State Fire Marshal Larry 
Petrillo, and all the representatives that came up from Fort 
Monmouth, we really appreciate this.
    To all of our witnesses, who our Chairman will introduce in 
a few moments before we get going, on both of our panels, we 
have a lot to cover today, and I want to thank the Chairman for 
coming to New Jersey, you know, this afternoon we leave and go 
back to Washington for another week, hopefully, of work.
    I want to welcome my good friend Charlie Dent from 
Pennsylvania. These are two good guys. We are not in the same 
party, but we have--we made a commitment in the very beginning 
that we were going to get over party differences and do what we 
had to do for the American people, and we are not going to be 
dissuade from that.
    I want to thank all of our witnesses for their 
participation. Local first responders, state security experts, 
and the officials from the Department of Homeland Security, 
they are going to discuss their efforts to protect our 
citizens.
    The title of the hearing is, ``Preparing for, Responding 
to, and Preventing Terrorists Attacks, Natural Disasters and 
Other Emergencies: Is Northern New Jersey Ready?'' We know that 
there are an abundance of risks and vulnerabilities associated 
with our region, and this official congressional committee 
hearing will delve into the various security endeavors our 
local, state and Federal Governments have taken, undertaken, 
engaged the levels of success so far. Look how many people have 
come out on this, citizens, as well as first responders, 
because we are inevitably all first responders, and I want to 
thank you for your interest in what we do.
    New Jersey is, after all, the most densely populated state 
in the Nation. Due to its unmatched collection of critical 
transportation, utility, petro chemical, pharmaceutical 
infrastructure, New Jersey functions as a critical global choke 
point of people or people and product. Our state ferries tens 
of millions of passengers to global destinations, and it ushers 
delivery of a vast quantity of goods to markets in the 
northeastern, southern, western United States, Canada, as well 
as Europe and the Far East.
    So, disruption to New Jersey's key transportation 
infrastructure, as precipitated by an act of terrorism, or a 
natural disaster, would severely affect both the national and 
international economic stability. We are not simply talking 
about the State of New Jersey.
    The seaports of Newark and Elizabeth process nearly 10 
percent of our Nation's total freight, just that one area, 850 
million tons per year come through those ports.
    A terrorist incident, or a natural disaster, would have the 
effect of placing vessel traffic at a standstill, resulting in 
a loss of billions of dollars of potential revenues daily from 
our economy. In addition, the surrounding superstructure of 
Amtrak's Northeast Corridor, the Newark Liberty International 
Airport, as well as the densely populated communities just 
south, whether it be Woodbridge, Edison, Linden or Rahway, 
would compound the humanitarian and economic disaster. Should 
any activity close the New Jersey Turnpike, for any duration, 
the result would be extreme gridlock in the Northeast Corridor. 
The trucks moving goods and supplies through to the Northeast 
would be shut down.
    We rank third in the Nation, New Jersey does, in terms of 
chemical production. There is almost 100 sites in New Jersey 
where large quantities of highly-toxic, highly-volatile 
chemicals are stored and used. Any of those sites have the 
ability to cause significant numbers of fatalities and serious 
illnesses, and we are going to have people on the second panel 
from the business community see what they are doing, because if 
this isn't a partnership, if you think that the Federal 
Government can do all of these things, you are wrong, we don't 
believe that. We know our responsibilities, and we've got to 
make sure that those responsibilities are carried out.
    So, any of these sites could mean significant amount of 
fatalities, serious illnesses, as a result of a terrorist 
attack or a natural disaster, and we must do everything we can 
to prevent, to prepare, and respond. We must remember this 
fact, if and when terrorists or natural disasters strike our 
homeland, it will be those on the local level that are most 
affected, and we saw when we went, not too long ago, to London, 
Madrid and Rome, all of those three places that have been 
bombed in the last several years, and talking in London, where 
they understand, really, I don't believe we understand it, we 
in Federal Government understand it, what boots on the ground 
really mean.
    In London, for instance, most of the information they 
gather in intelligence is not done from the top, it's done from 
the soldier, so to speak, the police officer from Scotland Yard 
and New Scotland Yard. This is something we have to get tuned 
into for folks who are already in the community that can 
provide intelligence up the ladder.
    Homeland security must begin at home, in our communities, 
in our cities, our towns. It is imperative that our men and 
women on the front lines are fully coordinated with the state 
and Federal Government, that robust communication, that robust 
cooperation, and integration throughout the varied spheres of 
our security apparatus do exist.
    I want to help ensure that the Department of Homeland 
Security, and I think my two colleagues would admit, it's come 
under a lot of battering in the last couple of months, and we 
have people saying that we are on the forefront of creating the 
Department, not have second thoughts. You put 22 Federal 
agencies together, 180,000 people, people are having second 
thoughts about that, whether we created a dinosaur.
    I want to help ensure that the Department is effectively 
working with state and local agencies in addressing the 
challenges of developing and implementing emergency 
preparedness response, and I think we all three of us want to 
hear that from our local communities if you are not getting the 
cooperation.
    I'm also looking forward to hearing from an array of 
emergency management and first responder officials. I'm 
interested to learn what they believe are the greatest 
impediments to their success.
    So, I welcome everybody here today. I welcome the two 
Congressmen, who have come from somewhat relative distances 
from the other side of the world to come to our area. We are 
proud in the 8th Congressional District, this district extends 
from Pompton Lakes all the way down to Livingston, it's a long 
district of 21 counties.
    So, thank you all for coming, and thank you, our panelists, 
first panel and second panel, and, Chairman, thank you again 
for all that you've done to make sure that safety is first and 
we protect our public.
    Thank you, Mr. Pascrell, and the Chair will recognize 
Congressman Dent for any statements he might want to make.
    Mr. Dent. Yes, and I'll be very brief, I just want to thank 
the Chairman for bringing this Subcommittee to Northern New 
Jersey, and also thank Ranking Member Pascrell for his strong 
leadership on homeland security issues, and it's just great to 
be here.
    My main interest here is, not just as a member of the 
committee, but I'm also selfish, in that my constituency is in 
the Lehigh Valley of Pennsylvania, Allentown, Bethlehem and 
Easton, we are just on the other side of the Delaware River, 
and how northern New Jersey responds to disaster, whether it be 
manmade or natural disaster, impacts my constituency 
significantly, since large numbers of my constituents make 
their livelihoods over here in northern New Jersey and the New 
York Metropolitan Area. Large numbers of people from eastern 
Pennsylvania travel on Interstate 78 and Route 80 into the New 
York Metropolitan Area every day.
    So, what happens here truly will have an enormous impact on 
my constituency, so that's why I want to learn about what you 
are doing here in northern New Jersey, and I want to learn 
about how you are going to prepare and respond.
    Also, I always worry, too, in that should there ever be, 
heaven forbid, some type of a major evacuation out of the New 
York Metropolitan Area, that will have an enormous impact on my 
constituency, because most people will be heading west on those 
interstates, and we talk about that quite a bit in my 
community. It's something that we think about.
    So, without any further commentary from me, I just want to 
hear from our presenters today, and I truly thank you for this 
opportunity to allow us to participate here in Northern New 
Jersey.
    Mr. Reichert. Thank you, Mr. Dent. I will call our first 
panel. With us on the first panel are Hon. Jerry Speziale, 
Sheriff of Passaic County, New Jersey, Hon. Armando Fontoura, 
Sheriff of Essex County, New Jersey, Mr. Joseph Rotonda, Chief 
of Police, Belleville Township, New Jersey, Mr. Michael 
Postorino, Fire Chief, City of Paterson, New Jersey, and Mr. 
Richard Caas, Director, Office of Homeland Security and 
Preparedness, State of New Jersey, and the Chair now recognizes 
Sheriff Speziale.

  STATEMENT OF HON. JERRY SPEZIALE, SHERIFF, PASSAIC COUNTY, 
                      STATE OF NEW JERSEY

    Mr. Speziale. Good morning.
    Mr. Reichert. Excuse me, just before you get started, you 
don't have to read your entire statement if you don't want to.
    Mr. Speziale. Yes, OK.
    Mr. Reichert. You have five minutes, so, you know, just 
whatever you feel like, whatever moves your spirit.
    Mr. Speziale. Very good.
    Good morning. As the Sheriff of Passaic County, I want to 
welcome this important committee to Passaic County. I want to 
first thank your Congressman, Bill Pascrell and the other 
Congressmen, you, Congressman Reichert, and Congress Dent, for 
being here for this very important meeting.
    Last month, myself and my compatriot here, Essex County 
Sheriff, Armando Fontoura, attended a Senate Homeland Security 
Conference and met with members of the New Jersey Delegation, 
to talk about some of the issues we had here in Passaic County. 
And, rest assured, here in Passaic County the public safety 
community, the fire, the EMS, the police, the prosecutor, and 
the chiefs of police, we all have an extremely close working 
relationship, which is founded on mutual respect, trust and 
friendship. Passaic County public safety here works as a team. 
The territorial touchiness no longer exists.
    However, the biggest problem that we have here is funding, 
and communications, and some of the things that are faced 
throughout the Nation that really need to be brought to the 
forefront so that we can get the equipment that we need, 
instead of just having the shirts on our back. That's really 
what we are faced with here in New Jersey, and I believe that's 
pretty much throughout the country.
    Thank you.
    [The prepared statement of Sheriff Speziale follows:]
    Retained in the Record

    Mr. Reichert. You yield the rest of your time, Jerry?
    Mr. Speziale. Yes.
    Mr. Reichert. That's pretty unusual for a Sheriff to be 
that short, I know.
    Mr. Speziale. I give it to my buddy here.
    Mr. Reichert. Thank you, Sheriff. The Chair now recognizes 
Sheriff Fontoura.

STATEMENT OF ARMANDO FONTOURA, SHERIFF, ESSEX COUNTY, STATE OF 
                           NEW JERSEY

    Mr. Fontoura. Mr. Chairman, Congressman Dent, Congressman 
Pascrell, thank you very much for being here. We appreciate the 
opportunity for Bill Pascrell, one of the most steadfast 
supporters of law enforcement and public safety personnel, we 
thank you for all the work that you do on our behalf.
    I'm not only the Sheriff in Essex County, I'm also the 
Emergency Management Coordinator for that County.
    Essex County is also one of the core members of the UASI 
area for this area, the Urban Area Security Initiative.
    Counter-terrorist experts say they have two miles along our 
County, the two most dangerous miles in America. Rest assured 
that we don't disagree with that categorization. The 
metropolitan area is the busiest airport, one the world's 
largest seaports, as Congressman Pascrell pointed out, and the 
State's largest railroad station, all located in Newark. We 
also have an intricate and vulnerable ground transportation 
network.
    Other potential terrorist targets in Essex County include 
chemical refineries, propane gas farms and natural gas storage 
facilities, the New Jersey Performing Arts Center, malls, 
medical centers, universities and New Jersey's largest and 
busiest Superior Court system, and one of the largest District 
Courts, Federal Courts, in the country.
    Captured documents reveal that Newark's Prudential complex, 
Prudential Towers, have been of particular interest to Al-Qaida 
terrorists. Because of this threat, law enforcement 
surveillance continues at Prudential.
    With these targets simultaneously in play, we have 
intensified our vigilance analyzing and investigating every 
lead, and shared all the intelligence as it relates to threats 
upon us. We continue to conduct Weapons of Mass Destruction and 
Counter-Terrorism seminars. We constantly rehearse through 
effectiveness of water, food and medicine. We have practiced 
searching for nuclear devices in our training first responders 
in vehicle-borne and suicide bomber detection. With the threat 
of the Avian Flu, we are conducting regional exercises so that 
we may effectively respond to pandemics.
    Our preparedness exercises and training are in place 
because Northern New Jersey is no stranger to incidents of 
terrorism.
    In 1994, our Bomb Squad was called to investigate a North 
Caldwell resident who was killed when he opened a mail bomb 
sent by the notorious Unabomber.
    Jersey City, and we all know was the headquarters for the 
s-called ``Blind Sheik,'' Omar Abdul Rahman, who staged a 
ground 1993 terrorist attack on the World Trade Center.
    Many of the victims of the 2001 terrorist attack on the 
trade center were from Northern New Jersey, including more than 
40 from our own County.
    The investigation of the 2001 attack verified that as many 
as 11 of the terrorists assimilated to our culture right here 
in this neighborhood. Nineteen of the 21 terrorists traveled 
through Northern New Jersey, as we all know, while they 
plotted, and one of the planes left from our own airport.
    As to future threats, our boots are on the ground, and our 
First Responders are training, exercising and watching.
    We thank our Federal partners for their financial support, 
allowing us to acquire vital communications, protective gear, 
and other counter-terrorism hardware.
    Of major concern to us is the target-hardening of our 
critical infrastructure. We have a wealth of targets and a 
population that would be severely at risk in the event of a 
major disaster.
    More funding must be expended on high security fencing, 
motion detectors, surveillance cameras, security barriers. 
Funding must be provided for our private-sector partners, who 
manage over 85 percent of our country's critical infrastructure 
facilities and sites.
    Since 2004, Federal Homeland Security funding for Northern 
New Jersey, while generous, has been reduced. Our 2005 and 2006 
funds have almost exclusively been earmarked and expended on 
target-hardening. Congress must enact legislation mandating 
that vulnerable, yet profit-making industries, adhere to 21st 
Century security standards.
    As we analyze the potential threats to Northern New Jersey, 
additional Federal funding is needed for hospital bedding, 
emergency medical supplies, such as those our hospitals would 
need for a tremendous surge of incoming patients due to 
disaster.
    Our best defense and response mechanism for disaster are 
trained First Responders, who would conduct de-contamination 
operations and distribute mass medication.
    Terrorism is not our only concern, catastrophic weather 
would also severely put us to the test.
    While Essex County has an Emergency Operations Center, the 
facility is inadequate. Essex County's Operations Center does 
not contain state-of-the-art interoperable communications, nor 
does it have the capacity to serve as the alternate seat of 
government.
    The New Jersey Transit Office Emergency Center is located 
next to Newark's Penn Station and the Port Authority is 
adjacent to the Holland Tunnel.
    Catastrophic weather or other disasters could force the 
closure of both of those centers. As their nearest neighbor, 
both agencies would turn to Essex County. Regretfully, we would 
also be unable to meet their needs at this time.
    The New York State Police's north regional Office of 
Emergency Management is located in Essex County. It would seem 
to make great sense to fund and construct a coordinated 
Emergency Operations Center with the State Police as our 
partner.
    Catastrophic weather or a terrorism event would also put 
our ability to evacuate and shelter a large group of people to 
the test. The low-lying, Ironbound section of Newark, my home 
town, would be severely impacted by a hurricane on the scale of 
Katrina. A terrorist incident in New York City could force the 
evacuation of hundreds of thousands of people that would pass 
through or be sheltered in Essex County.
    At this time, Essex County is incapable of evacuating or 
sheltering hundreds of thousands of disaster victims.
    Also, contingency plans such as reverse lanes of traffic to 
accommodate an evacuation have never been tested. These 
contingencies should be funded so that we may study these 
problems and conduct appropriate exercises. Disaster could 
jeopardize continuity of operations and continuity of 
government.
    Currently, no plan is in place to transfer and store vital 
government records. Again, feasibility studies and operational 
exercises should be funded and conducted. First Responders are 
stretched to the limit, while we attempt to do more with less, 
and realize the importance of our mission. We will soon 
approach a point of diminishing returns for our efforts. It is 
not a matter of ``if'' we will be attacked, but when we will be 
attacked.
    Funding must go to where the threats are greatest and to 
where the population is most vulnerable. When you have 
terrorists operating in our community, as they have operated 
here in Northern New Jersey, ``beat cops'' with training are in 
the best position to find them. I firmly believe that it is 
from the hood of a police car that terrorism will be stopped.
    Those of us who live in Northern New Jersey expect future 
blackouts, blizzards, ice storms and nor'easters. To facilitate 
our effective response, we must have the operational ability 
and related hardware in place and at the ready.
    More than 21 million people live in the metropolitan area. 
Locally, the stakes are extremely high. We urge you to support 
and fund our needs.
    I thank you for the opportunity to be here.
    [The prepared statement of Mr. Fontoura follows:]

                 Prepared Statement of Armando Fontoura

    Mr. Chairman, distinguished members of Congress, ladies and 
gentlemen.
    My name is Armando Fontoura and I am the Sheriff of Essex County, 
New Jersey and Coordinator of the Essex County Office of Emergency 
Management.
    Thank you for this opportunity to appear today before you and the 
House Homeland Security Committee's Subcommittee on Emergency 
Preparedness, Science and Technology.
    For those who are unfamiliar with northern New Jersey, please know 
that Essex County is a core county member of the Urban Area Security 
Initiative, commonly known as UASI.
    As reported in the New York Times, federal counter-terrorist 
officials have categorized parts of Essex County, the financial, 
industrial and cultural capital and the transportation hub of New 
Jersey, as "America's Two Most Dangerous Miles".
    Those of us charged with protecting the people of our community and 
our critical infrastructure do not disagree with the "Most Dangerous" 
classification.
    Essex County is home to the busiest international airport in the 
New York/New Jersey metropolitan area, one of the world's largest and 
most active seaports and New Jersey's largest and busiest railway 
station.
    As one of our nation's most densely populated regions, Essex County 
is also home to a wide variety of potential terrorist targets, 
including chemical refineries, propane gas farms, natural gas storage 
facilities, pharmaceutical companies, the New Jersey Performing Arts 
Center, Riverfront Stadium, major shopping malls, many colleges, 
universities and hospitals, an intricate and interdependent network of 
highways, rail lines, bridges and tunnels, and New Jersey's largest and 
busiest Superior Court vicinage and our federal courts.
    Captured documents specifically reveal that Newark's Prudential 
complex has been of particular interest to Al-Qaida terrorists. Because 
of this 2004 threat, law enforcement surveillance at Prudential 
continues.
    With these many targets simultaneously in play, local, regional and 
state Homeland Security personnel and law enforcement agencies have 
intensified our vigilance, analyzed and investigated every potential 
lead and shared all intelligence as it relates to threats upon us.
    Steadfastly, we continue to conduct Weapons of Mass Destruction and 
Counter-Terrorism seminars, Water, Food and Medicine Distribution 
rehearsals, Nuclear Device Search and enhanced Explosives Detection 
exercises, specifically training First Responders in vehicle-born and 
suicide bomber detection. And now, with the threat of Avian Flu, we are 
conducting regional exercises so that we may effectively respond to 
pandemics.
    Our preparedness exercises and training are in place because Essex 
County and our neighbors are no strangers to incidents of terrorism.
    On December 10, 1994, Mr. Thomas Mosser of North Caldwell, was 
killed when he opened a mail bomb sent by Ted Kaczynski, the notorious 
Unabomber.
    Jersey City was the headquarters for the so-called "Blind Sheik", 
Omar Abdul Rahman, and staging ground for the 1993 terrorist attack on 
the World Trade Center.
    Many of the victims of the 2001 terrorist attack on the trade 
center were from northeastern New Jersey, including more than 40 Essex 
County residents.
    The follow-up investigation to the 2001 attack documents that 19 of 
the 21 terrorists traveled through northern New Jersey, plotting their 
assault right in our own backyard, and as many as eleven of the 
terrorists assimilated our culture and lived among us.
    As to future threats, our boots are on the ground. Thousands of law 
enforcement officers and other First Responders are training, 
exercising and watching.
    We thank our federal partners for their technical expertise and 
past financial support to acquire vital protective gear, 
communications, rolling stock and other counter-terrorism hardware.
    Of major concern to those of us in northern New Jersey is the 
target-hardening of our critical infrastructure. As noted earlier, we 
have a wealth of tempting targets and a population that would be 
severely at-risk in the event of a manmade or natural disaster.
    More funding must be expended on items such as high security 
fencing, motion detectors, surveillance cameras, security barriers and 
training for our First Responders and our private-sector partners who 
manage over 85% of our county's critical infrastructure facilities and 
sites.
    Since 2004, federal Homeland Security funding to northeastern New 
Jersey, while generous, has been reduced. Our 2005 and 2006 funds have, 
almost exclusively, been earmarked and expended on target-hardening.
    However, in order to support this public-sector financial 
investment in our safety, Congress must enact legislation, mandating 
that vulnerable, yet profit-making, industries, whether chemical, 
petroleum or nuclear power, for example, adhere to security standards 
that meet the needs of the 21st century.
    As we look forward and calculate the potential for manmade or 
natural threats, additional federal funding is needed for HAZMAT 
detection equipment, hospital bedding and emergency medical supplies, 
such as X-ray machines, MRI's and sterilization equipment, specifically 
the equipment that our hospitals and health care facilities would need 
in the event of a tremendous surge of incoming patients as a result of 
a catastrophic natural disaster or terrorist incident.
    The best defense against terrorist and the first line of response 
to natural disasters are trained law enforcement officers, 
firefighters, emergency medical technicians and hospital personnel who 
would be charged with a major surge of incoming patients and the 
distribution of mass medication and prophylaxes.
    A terrorist attack is not our only concern. A catastrophic weather 
event, such as a hurricane on the scale of Katrina, would severely put 
us to the test as would an airline crash in our densely populated urban 
area or a major HAZMAT incident.
    While Essex County has an Emergency Operations Center we believe 
this facility to be inadequate to meet our needs. A viable EOC should 
contain state-of-the-art interoperable communications and have the 
capability to serve as the alternate seat of government.
    The EOC for New Jersey Transit is located next to Newark's Penn 
Station and the EOC for the Port Authority of New York and New Jersey 
is located just outside of the Holland Tunnel.
    A catastrophic weather event could force the closure of either 
center. As their nearest neighbor, both agencies would turn to Essex 
County. Regretfully, we would also be unable to meet their many needs.
    The New Jersey State Police's north regional Office of Emergency 
Management is located in Essex County. It would seem to make great 
sense to fund and construct a coordinated Emergency Operations Center 
with the State Police as our partner in Essex County.
    A catastrophic weather event or terrorist event would also put our 
ability to evacuate and shelter a large group of people. The low-lying, 
Ironbound section of Newark would be severely impacted by a hurricane. 
A terrorist incident in New York City could force the evacuation of 
hundreds of thousands of people who would pass through or be sheltered 
in Essex County.
    At this time, Essex County could cope with an evacuation and 
sheltering of hundreds of victims but not thousands or tens of 
thousands or hundreds of thousands of people.
    In the event of such a major disaster, contingency plans, such as 
reverse lanes traffic to accommodate an evacuation, have never been 
tested. These contingencies should be funded so that we may study these 
problems and conduct appropriate exercises.
    Weather, terrorism or any other significant disaster could also 
jeopardize Continuity of Operations and Continuity of Government. 
Currently, no plan is in place to transfer and store vital government 
records and documents. Again, feasibility studies and operational 
exercises should be funded and conducted.
    Right now, the boots we have on the ground are stretched to the 
limit. We are all doing more with less. We all realize the importance 
of our mission. However, we will soon approach a point of diminishing 
returns for our efforts.
    UASI members know it is not a matter of "if" we will be attacked. 
but where and when.
    The pork barrel must be taken out of the funding formula. Funding 
must go to where the threats are greatest and to where the population 
is most vulnerable.
    When you have terrorists operating in the community, as they have 
operated here in northeastern New Jersey, in Canada, in London and in 
Spain, "beat cops" with training are in the best position to find them. 
I firmly believe that it is from the hood of a police car that 
terrorism will be stopped.
    We who live in northern New Jersey expect to experience future 
blackouts, blizzards, ice storms and nor'easters. To facilitate our 
effective response to such incidents, we must have the operational 
ability and related hardware in place and at the ready.
    More than 21 million people live in the metropolitan area. Locally, 
the stakes are extremely high. We urge you to support and fund our 
needs.
    I thank Representative Pascrell for bringing this important hearing 
to our district and I thank the Chairman for this opportunity to appear 
before you today.

    Mr. Reichert. Thank you, Sheriff. The Chair now recognizes 
Chief Postorino.

 STATEMENT OF MICHAEL POSTORINO, FIRE CHIEF, CITY OF PETERSON, 
                      STATE OF NEW JERSEY

    Mr. Postorino.. Thank you.
    Let me express what an honor it is that I was asked to 
participate in this Homeland Security Emergency Preparedness 
Subcommittee hearing. First, I would like to recognize and than 
Hon. Members of the Emergency Preparedness, Science and 
Technology Committee, Congressman Reichert, Congressman 
Pascrell, and Congressman Dent, Committee members.
    Two areas which are always at the forefront of emergency/
disaster responses are: [1] Command & Control, and [2] 
Communications.
    Regarding Command & Control, fire departments in general 
are usually the most adept at working within a structured 
Incident Command System. Prior to Executive Order No. 50, 
issued by the State, as per the New Jersey Division of Fire 
Safety, all members of the Department are required to 
participate and receive Incident Command Training. 
Additionally, every service call, which in our case for the 
City of Paterson totals over 6,000 fire and 26,000 EMS calls, 
results in the Incident Command System being utilized on a 
daily basis.
    Unfortunately, experience has shown that when we are 
involved in large-scale incidents, which require a ``Unified 
Command Structure,'' a large number of other agencies which may 
have a ``classroom understanding'' of the Incident Command 
System lack a ``working knowledge'' of the system. As an 
incident escalates, and in particular where a Federal, State 
and local response is mandated, failure of such respective 
agencies to have a working knowledge of NIMS and the Incident 
Command System will present major coordination and control 
problems.
    Consistent with Homeland Security Presidential Directive 
HSPD 5, and State of New Jersey Executive Order 50, the 
Paterson Fire Department has taken the initiative and completed 
the required Incident Command and NIMS training mandated for 
Fiscal Years 2005 and 2006, and we will continue to meet the 
training requirements for Fiscal Year `07.
    Regarding communication, the biggest challenge in 
particular when a Federal, State and local response is 
warranted deals with interoperability. While efforts are being 
made to improve on the interoperability, it doesn't appear that 
such efforts are moving fast enough. During our various 
emergency drills, the same complaints resurface about different 
agencies not having the capabilities of communicating with each 
other, or sharing data. Again, while improvements are being 
made, some of the same communications issues identified post 9/
11 are still quite evident today.
    While events of the magnitude of Hurricane Katrina, 9/11 or 
Oklahoma City are not every-day occurrences, thank God, many 
events that do occur on a daily basis, such as building fires, 
rescues, chemical spills, train derailments, and highway 
incidents require different agencies for jurisdiction to 
communicate with one another to provide the necessary equipment 
and manpower to mitigate the incident.
    What I ask is, are we really better prepared or are we just 
more aware?
    I'll give you a couple examples of the City of Paterson, 
blackouts, back in 2003 we had the blackout of the Northeast. 
We lost power, we lost all ability to phone service, no 
redundancy for our computer systems, no ability for our 
firefighters to respond unless they manually were able to do it 
using their cell phones. This is unacceptable in today's day 
and age. We have yearly storms. Extrication gets hindered by 
lightning strikes, which in the case of Passaic County would 
knock out our radio tower. This radio tower can only be 
restarted if one individual--by an individual who has the key 
to go up to an off-site, unlock it, and manually start the 
generator. How can that be in today's day and age?
    Just last month, the City of Paterson had a train 
derailment. While the Fire Department worked in conjunction 
with the Passaic County Sheriff's Department to help the 
Department, the Paterson OEM, Paterson Police, New Jersey State 
Police, New Jersey Task Force One, one of the simplest 
functions, being able to communicate, can only be done using 
either our cell phones or face to face. How is it that we can 
talk to people on the moon, but yet within one block we cannot 
communicate with our radio system?
    Some solutions, we need to invest in solar power for 
redundant back-up power. We need alternative antenna repeater 
sites. We need to regionalize our radio frequency bandwidth, so 
that all emergency responders can communicate. We have to 
prevent the FCC from allowing commercial vendors from 
purchasing low-powered systems which cause bleed overs during 
our emergency operations.
    I can give you an example of how we'll be working on an 
emergency scene, we have a limousine company that will come in 
and, basically, bleed out our members while we are giving out 
orders, while they are giving their directions for where they 
need to go. We need to upgrade our infrastructure so that the 
technology that's out there today can be supported.
    As far as funding goes, fire departments have to compete 
with other city agencies, with different demographics, for gas 
tax dollars. Funding cycles must be planned far in advance for 
changes or upgrades of costly equipment. One of the major 
problems we run into is that by the time the budgets get 
approved the technology is almost already out of date, and this 
causes--and the manufacturer no longer can support the 
technology.
    Some solutions, funding assistance from Federal sources 
must be consistent in order to provide necessary training, 
continuity of operations of instituted programs, and 
replacement of necessary manpower and needs.
    In conclusion, while there is new awareness regarding the 
threats which emergency responders face today, and while 
efforts are being made to prepare for such threats, the sad 
reality is that first responders still lack the necessary 
training and equipment to handle the emergencies of any large-
scale incident.
    Again, I would close with what I opened, are we better 
prepared or are we really just more aware?
    Thank you.
    [The prepared statement of Mr. Postorino follows:]

                Prepared Statement of Michael Postorino

    Let me express what an honor it is that I was asked to participate 
in this Homeland Security Emergency Preparedness Subcommittee Hearing.
    First I would like to recognize and thank the Honorable Members of 
the Emergency Preparedness, Science and Technology Subcommittee: 
Congressman David Reichert, Subcommittee Chairman; Congressman Bill 
Pascrell, Jr., Subcommittee Ranking Member; and Congressman Charles 
Dent, Subcommittee member.
    Committee Members:
    Two areas which are always at the forefront of any Emergency/
Disaster Response are: (1) Command & Control and (2) Communications.
    Regarding Command & Control, Fire Departments in general are 
usually the most adept at working within a structured Incident Command 
System. Prior to Executive Order # 50 being issued, as per the New 
Jersey Division of Fire Safety, all members of the Department were 
required to receive Incident Command Training. Additionally, every 
service call, which in our case totals over 6000, results in the 
Incident Command System being utilized on a daily basis. Unfortunately, 
experience has shown that when we are involved in large-scale incidents 
which require a "Unified Command Structure", a large number of other 
agencies which may have a "classroom understanding" of the Incident 
Command System lack a "working knowledge" of the System. As an incident 
escalates, and in particular, where a Federal, State, and local 
response is mandated, failure of such respective agencies to have a 
"working knowledge" of NIMS and the ICS will present major coordination 
and control problems.
    Regarding Communications, the biggest challenge, in particular, 
when a Federal, State, and Local response is warranted, deals with 
interoperability. While efforts are being made to improve on the 
interoperability, it doesn't appear that such efforts are moving fast 
enough. During our various emergency drills, the same complaints 
resurface about different agencies not having the capabilities of 
communicating with each other. Again, while improvements are being 
made, some of the same communication issues identified "post 9/11" are 
still quite evident today.
    While events of the magnitude of Hurricane Katrina, 9/11, or 
Oklahoma City are not everyday occurrences; Many events that do occur 
on a daily basis such as building fires, rescues, chemical spills, 
train derailments and highway incidents require different agencies or 
jurisdictions to communicate with one another to provide the necessary 
equipment and manpower to mitigate the incident.
    Are we better prepared, or are we just more aware?

Examples of Everyday Occurrences:
    Blackouts: No backup power, lost phone service, no redundancy in 
computer systems and radio systems. Only 3 of the 7 firehouses have 
backup generators. These generators are over 25 years old and need 
replacement. We have applied for solar powered electrical backup units 
for all firehouses via the 2006 Fire Act Program.
    Yearly Storms: Common occurrences such as extraction of residents 
in low lying areas near Passaic River. Radio tower was struck by 
lightning knocking out power, rendering all communications unusable. 
Backup generator is a manual start unit which necessitates someone 
going to the site to start it.
    Train Derailment: The Paterson Fire Department worked in 
conjunction with the Sheriff's Department, Health Department, Paterson 
O.E.M., Paterson Police, NJ State Police, Department of Pubic Works, NJ 
Task Force One, and the Susquehanna Railroad Company. There was no 
communications due to the lack of radio interoperability.

Solutions:
    Investment in solar power for redundant backup power.
    Alternative antenna repeater site.
    Regionalization of radio frequency bandwidth.
    Have the FCC prevent commercial vendors from purchasing low powered 
systems which cause bleed over and distortion on our public safety 
primary stations.
    Provide a trunked radio system and training in proper operation 
procedures. This will provide no delay in being able to communicate 
with other agencies.
    Upgrade wiring in building infrastructure to support new 
technology.

Funding Sources:
    The Fire Department has to compete with other city agencies for 
scarce tax dollars.
    Funding cycles must be planned far in advance for changes or 
upgrades of costly equipment.
    One of the major problems we run into is that by the time the 
budgets get approved the technology is out of date and in many cases 
the manufacturer no longer supports the technology.

Solutions:
    Funding assistance from federal sources must be consistent in order 
to provide necessary training, continual operation of instituted 
programs, and replacement of manpower.

    Grants Procured by the Paterson Fire Department:
(Assistance to Firefighters Grant Program Awards)

2001 AFG grant for Personal Protective Equipment
    $244,933.00--SCBA's,Turnout Gear

2002 AFG grant for Fire Operations and Firefighter Safety
    $117,331.00--Portable Radios, SCBA Voice Amplifiers

2003 AFG grant for Fire Operations and Firefighter Safety
    $136,751.00--Firehouse Air Filtration Systems & Decon Washer/Dryer

2004 AFG Fire Prevention and Safety Program for General Prevention 
Awareness and Multi-Hazard Prevention Programs
    $216,639.00--Fire Companies with Notebook Computers to interface 
with Fire Inspection Program, hire 2 inspectors

2005 AFG grant for Rescue Truck Purchase
    $280,000.00--Rescue Truck Purchase

2005 SAFER "Staffing for Adequate Fire and Emergency Response" grant to 
hire personnel.
    $6,374,080.00--Hire 64 Firefighters

    The seven city firehouses average 40 years of age with antiquated 
mechanical and electrical systems; in most cases the wiring is 
inadequate for today's power needs. Security systems are non existent. 
We have installed new fencing and installed new locks but if the terror 
alert is raised, we have no other security measures in place.
    In the past the Paterson Fire Department applied 3 times for a 
rescue truck before being successful. This, after showing that the City 
had not been able to procure a new truck since 1984.
    Consistent with Federal & State requirements, the Paterson Fire 
Department maintains and updates the Fire/Rescue, Hazmat, and EMS 
Emergency Annexes, which in part comprise the City of Paterson 
Emergency Operation Plan. In addition, the Paterson Fire Department 
will be presenting an addendum to the Evacuation plan, which is 
maintained and updated by the Paterson Police Department.
    Consistent with Homeland Security Presidential Directive/HSPD-5, 
and State of New Jersey Executive Order # 50, the Paterson Fire 
Department has taken the initiative and completed the required Incident 
Command and NIMS training mandated for Fiscal Years 2005 and 2006, and 
will continue to meet the training requirements for Fiscal Year 2007.
    The Paterson Fire Department has and will continue to partake in 
various emergency disaster drills designed to identify any areas of 
concern, which need to be addressed.
    In conclusion, while there is a new awareness regarding the threats 
which emergency responders face today, and while efforts are being made 
to prepare for such threats, the sad reality is that first responders 
still lack the training and equipment required to handle such large-
scale incidents.

    Mr. Reichert. Thank you, Chief. The Chair recognizes Chief 
Rotonda.

   STATEMENT OF JOSEPH ROTONDA, CHIEF OF POLICE, TOWNSHIP OF 
                BELLEVILLE, STATE OF NEW JERSEY

    Mr. Rotonda. Good morning, Honorable Chairman, Honorable 
Charles Dent, and my Congressman, the Ranking Member of this 
committee, Hon. William Pascrell, Jr. Thank you, gentlemen, for 
inviting me and giving me the opportunity to appear before this 
committee and address the topic at hand.
    Let me start off by noting, that with the exception of our 
sister state New York and Virginia, no other state has suffered 
both the human tragedy and financial loss as New Jersey has, 
from the terrorist attacks of September 11th.
    In the hours, days and weeks after September 11, New 
Jersey's law enforcement community assisted and provided 
security to protect important infrastructure. For example, 
within the first week, Belleville's Mobile Command Unit was 
loaned out to the Secret Service as the Command Post, used to 
recover the remains of those who lost their lives on 9/11. 
During this initial period and up to the present day, to the 
best of our abilities we assess possible terrorist targets, to 
the extent we were and are currently able to do. However, with 
limited resources we have attempted to be as prepared as we 
could be for the type of attack that the Federal Government 
warned us about.
    However, such measures in the name of homeland security 
have not come cheap. They have consumed large amounts of tax 
dollars earmarked for other governmental programs and services. 
It goes without saying for the record, that has been no small 
task. In the near and distant future, the challenges will only 
grow, especially in a state like New Jersey, which has the 
dubious distinction of having the highest property taxes in the 
Nation.
    If I may, I would like to describe the Township of 
Belleville with respect to this issue, as most other New Jersey 
communities we just do not have the local resources to fund all 
necessary equipment, manpower and continuing training.
    The Township of Belleville, Essex County, is located 
directly north of the City of Newark, within ten miles of New 
York City. Our population is approximately 36,000 people. Our 
police department consists of 113 sworn police officers and 41 
civilian employees. Currently, 74 percent of total valuation is 
placed on residential property owners.
    At close proximity to New York City, and bordering the City 
of Newark, both of whom remain likely terrorist targets, has 
placed an additional strain on communities such as Belleville. 
As the chief law enforcement executive, I have an obligation to 
protect the citizens of my Township, as well as ensuring the 
safety of officers under my command. I cannot do this without 
the assistance of the Federal Government in providing 
additional manpower, equipment and training.
    The Township has valuable infrastructure targets, major 
water lines, the transcontinental gas lines, telephone transfer 
stations, a direct highway that leads to lower Manhattan, a 
bridge, major medical centers, two mental health facilities, 
and a light rail that runs directly into Penn Station in Newark 
and then directly to New York City. In 2003, the New Jersey 
Office of Counter-Terrorism classified the Belleville 
Interconnection as one of the 104 critical infrastructures in 
the state. This infrastructure is considered a target of 
interest to terrorists. Damage to one of the main aqueducts, 
while supplying drinking water to several municipalities in 
Northern New Jersey, including the cities of Newark and Jersey 
City, two largest cities in the State of New Jersey, and any 
level of disruption would have the potential of widespread 
destruction, fear and loss of life.
    Yet, currently, the security around this facility consists 
of an old damaged fence with very poor exterior lighting and no 
security monitoring systems. Financially, we cannot afford to 
purchase the necessary security systems to address these 
concerns. Additionally, we do not have the manpower to station 
personnel at this site, again increasing our security concerns.
    In early 2003, the Township of Belleville established an 
Emergency Response Team. We do not have a very large staff, so 
utilizing law enforcement officers in this capacity has its 
ramifications. For example, manpower shortages to normal police 
operations, and the need and requirement for specialized 
training and equipment.
    Also in 2003, the Essex County Prosecutor's Office, in 
conjunction with the New Jersey Office of Homeland Security and 
Preparedness, created the Essex County Rapid Deployment Team. 
Currently, several of my officers also serve on this team. Once 
again, we face manpower shortages, when our members are 
deployed, such as last summer during the London terrorist 
attacks, whereby our officers patrolled our light rail system 
from Belleville to Penn Station in Newark. We just do not have 
the funds allocated to cover overtime, compensation time, and 
equipment.
    In 2003, the Township of Belleville established a Community 
Emergency Response Team, comprised of local citizens who have 
received designated training to qualify as members. As CERT 
members, they are trained to assist our first responders in the 
event of a terrorist attack and/or natural disaster. However, 
since its inception, our local officials have not earmarked a 
budget to provide for the cost of training, equipment and 
necessary resources. To this point, we have maintained our CERT 
team through private organizational donations. Yet, without 
adequate funding, we cannot offer proper training, equipment 
and resources that are truly necessary.
    Early in 2003, one year after 9/11, we were fortunate 
enough to be able to purchase gas mask canisters to protect our 
staff from terrorist attacks involving biological, chemical and 
other agents. However, we are now starting to question whether 
or not we will have proper funding to purchase new canisters, 
gas masks, and/or equipment necessary to maintain properly-
functioning, life-saving equipment.
    This equipment requires yearly fit testing, equipment 
checks and maintenance records. Yet, I do not have the 
resources available to purchase the necessary testing equipment 
for all the mandatory OSHA regulations. Even if I had the 
resources, without a stockpiling, how much time would it take 
us to retrieve them, to address an imminent or emerging crisis.
    Gentlemen, I do not have the answers to these questions, 
which leads me to my final thoughts, and in conclusion I would 
like to note for the record that Belleville has been fortunate 
to receive some funding through the State of New Jersey and the 
Federal Government. They have truly helped us in our efforts, 
but, gentlemen, as I have noted, it is clearly not enough for 
us to properly address being prepared and capable of handling 
some of the potential emergencies we could face. To make this 
work, first responders, emergency personnel, local officials 
and citizens understand the needs of their communities better 
than anyone. They, most of all, need to be an integral part of 
decisions regarding future funding decisions.
    Again, I would like to thank Hon. Chairman and his 
committee for giving me the opportunity. It has been an honor 
and a privilege to serve the community, State and Nation.
    Thank you.
    [The prepared statement of Mr. Rotonda follows:]

                  Prepared Statement of Joseph Rotonda

    Good morning, Honorable Chairman, David G. Reichert, Honorable 
Charles Dent, Honorable Bennie G. Thompson, and my Congressman, the 
ranking member of this committee, the Honorable William Pascrell Jr. 
Thank you, Gentlemen, for inviting me and giving me the opportunity to 
appear before this committee and to address the topic at hand. 
("Preparing for, responding to, and preventing terrorist attacks, 
natural disasters, and other emergencies: Is Northern New Jersey 
Ready?")
    Let me start off by noting, that with the exceptions of our sister 
state New York and Virginia (Washington, D.C.,) no other state has 
suffered both the human tragedy and financial loss as New Jersey, has 
from the terrorist attacks of September 11, 2001.
    In the hours, days, and weeks after September 11, New Jersey's law 
enforcement community assisted and provided security to protect 
important infrastructure. For example, within the first week, 
Belleville's Mobile Command Unit was loaned out to the Secret Service 
as the Command Post, used to recover the remains of those who lost 
their lives on 9/11. During this initial period and up to the present 
day, to the best of our abilities, we assessed vulnerabilities. To the 
extent we were and currently are able, however, with limited resources, 
we have attempted to be as prepared as we could be, for the type of 
attacks that the federal government warned us about. Clearly, our great 
state has been willing to bear more than its fair share, in our war on 
terrorism.
    However, such measures in the name of homeland security have not 
been cheap. They have consumed large amounts of tax dollars, earmarked 
for other governmental programs and services. It goes without saying, 
for the record, that it has been no small task, in terms of marshalling 
the staff, equipment, and other resources needed. In the near and 
distant future, the challenges will only grow, especially in a state 
like New Jersey, which already has the dubious distinction of having 
the highest property taxes in the nation, if local governments do not 
get the resources, i.e. funding, equipment and proper training.
    If I may, I would like to describe the Township of Belleville with 
respect to this issue, as most other New Jersey Communities, we just do 
not have the local resources to fund all the necessary equipment, 
manpower, and continued training.
    The Township of Belleville, Essex County, is located directly north 
of the City of Newark, on the western bank of the Passaic River, within 
ten miles of New York City. Our population is approximately 36,000 with 
a density of approximately 11, 000 people per square mile. Our police 
department consists of 113 sworn police officers and 41 civilian 
employees. The community is part of the heart of New Jersey's rust 
belt. Our township is considered an Urban Aid Community with an 
increasing tax burden; currently 74% of total valuation is placed on 
the residential property owners, due largely to the migration of 
businesses and manufacturing industries from the township.
    Our close proximity to New York City and bordering the City of 
Newark, both of who remain likely terrorist targets, has placed an 
additional strain on communities such as Belleville. As the Chief Law 
Enforcement executive, I have an obligation to protect the citizens of 
my township as well as insuring the safety of the officers under my 
command. I cannot due this without the assistance of the Federal 
Government in providing additional manpower, equipment and training.
    The township has valuable infrastructure targets, i.e. major water 
lines, the transcontinental gas lines, telephone transfer station, a 
direct highway that leads into lower Manhattan (Route #7 leads to the 
Holland Tunnel,) a bridge, major medical center (Clara Maass Medical 
Center,) two mental health facilities used for both educational 
purposes and rehabilitory needs for people with cerebral palsy, and a 
light rail line that runs directly into Penn Station, Newark, New 
Jersey, then to Grand Central Station, New York. NY. With respect to 
homeland security issues in 2002, with the passage of the Public Health 
Security and Bioterrorism Preparedness and Response Act, the 
Environmental Protection Agency developed baseline threat information, 
to use in conjunction with vulnerability assessments pertaining to 
contamination threats, such as the release of biological, chemical, and 
radiological substances into our water supplies. In 2003, the New 
Jersey Office of Counter-Terrorism classified the Belleville 
Interconnection, as one of the 104 critical infrastructures in the 
state. This infrastructure is considered a target-of-interest to 
terrorists. Damage to one of the main aqueducts, which supplies 
drinking water to several municipalities in Northern New Jersey, 
including the Cities of Newark and Jersey City (the two largest cities 
in the State,) and any level of disruption, could have the potential of 
widespread destruction, fear and loss of life. Yet, currently, the 
security around this facility is an old damaged fence, with very poor 
interior/exterior lighting, and no security monitoring systems, i.e., 
C.C. T.V.
    Financially, we cannot afford to purchase the necessary security 
systems to address these concerns. Additionally, we do not have the 
manpower to station personnel at this site, again increasing our 
security concerns. As I stated earlier, my community's leaders have 
allowed the police/fire/first responders to take measures to address 
our homeland security concerns from our perspective and needs. In early 
2003, we established an Emergency Response Team. You must, however, 
keep in mind we are not a major city such as Newark, Jersey City, 
Paterson or Trenton. We do not have a very large staff, so utilizing 
law enforcement officers in this capacity has its ramifications, i.e., 
manpower shortages to normal police operations, the need and 
requirements for specialized training and equipment such as automatic 
weapons. Prior to the creation of this team, our department did not 
have a single, automatic weapon or a law enforcement, officer capable 
and qualified to use such a weapon. Now, we all know the terrorists 
have them, so this is a positive thing, but again, it has become very 
costly. Also in 2003, the Essex County Prosecutor's, Office in 
conjunction with New Jersey Office of Homeland Security and 
Preparedness, created the Essex County Rapid Deployment Team. 
Currently, several of my officers also serve on the RDT. Again, I 
emphasize, we did so to help do our part in accomplishing the goals and 
objectives of this multi-agency effort, to prepare and respond to a 
terror attack, natural, or manmade disaster. Once again, we face 
manpower shortages, when our members are deployed, such as last summer, 
during the London terrorist attacks, whereby our officers patrolled our 
light rail system, from Belleville to Penn Station, in Newark N.J.
    We just do not have the funds allocated to cover overtime, 
compensation time and equipment needs. Additionally, in October of 
2003, in an attempt to encourage community/citizen involvement in our 
efforts to prepare for, respond to, and prevent terrorist attacks and 
natural disasters, we instituted the Community Emergency Response Team, 
comprised of local citizens, who have received designated training to 
qualify as members. As C.E.R.T. members, they are trained to assist our 
first responders in the event of a terrorist attack and/or a natural 
disaster; however, since its inception, our local officials have not 
earmarked a budget to provide for the costs of training, equipment, and 
necessary resources, To this point, we have maintained our C.E.R.T., 
through private organization donations, (citizens willing to donate 
their time and money to purchase some of the necessary equipment.) 
Again, this highlights the fact that we have attempted to take the 
proper steps to prepare not only our first responders but also our 
citizens. Yet, without adequate funding, we cannot offer proper 
training, equipment and resources that truly are necessary.
    Lastly, in early 2003, over one year after 9/11, we were fortunate 
enough to purchase Dragger Gas Masks/Canisters to protect our staff 
from a terrorist attacks involving biological, chemical, and other 
agents; however, we are now starting to question whether or not we will 
have proper funding to purchase new canisters, gas masks and/or 
equipment necessary to maintain properly functioning life saving 
equipment. Currently, I have to serve two masters as an employer: OSHA 
Worker Health Safety Rules/guidelines, which require yearly fit 
testing, equipment checks, and maintenance records. Yet, I do not have 
the resources available to purchase the necessary testing equipment for 
these mandatory OSHA Regulations. Thus, it is issues such as this, that 
leave one wondering in a hypothetical situation, what happens if we 
were to have a terrorist attack, which involved bio- hazardous 
materials and numerous members of our personnel responded and are then 
required to relinquish their equipment for HAZ-MAT decontamination. We 
currently do not have enough resources to replenish these vitally 
necessary life saving equipment. Even if we had the resources, without 
a stockpile, how much time would it take us to retrieve them, to 
address an eminent and/or emerging crisis situations? Gentlemen, I do 
not have the answers to these questions, which leads me to my final 
thoughts.
    This is clearly only part of addressing our homeland security 
target-hardening agenda but are we really addressing the problem? I 
wonder what the public would think, if they knew. Would they accept 
this? This in turn, leads me to my next observation. It appears to me, 
that the public perception is our federal government since, 2001, has 
become complacent, which has helped to increase the fears of both the 
public and America's First Preventers.
    In conclusion, I would like to note, for the record, that 
Belleville has been fortunate to receive grants through the state of 
New Jersey and the federal government. They have truly helped in our 
efforts: but, Gentleman, as I have noted, it clearly is not enough for 
us to properly address being prepared and capable of handling some of 
the potential emergencies we could face. To make this work, first 
responders, emergency personnel, local officials, and citizens 
understand the needs of their communities better than anyone. They, 
most of all, need to be an integral part of decisions, regarding future 
funding decisions.
    Again, I would like to thank the honorable chairman, Reichert and 
his committee for giving me this opportunity. It has been an honor and 
a privilege to serve this community, state and nation.

    Mr. Reichert. Thank you, Chief. The Chair recognizes Mr. 
Canas.

   STATEMENT OF RICHARD CANAS, DIRECTOR, OFFICE OF HOMELAND 
         SECURITY AND PREPAREDNESS, STATE OF NEW JERSEY

    Mr. Canas. Thank you very much, Chairman Reichert, 
Congressman Dent and Congressman Pascrell. I appreciate the 
opportunity to address your Subcommittee on Emergency 
Preparedness, Science and Technology.
    This morning, I want to outline the responsibilities of my 
new office and provide you with my own perspective on Northern 
New Jersey's preparedness for the various risks we face.
    Before I begin, I want to set a context for your 
expectations. I have been at my job in New Jersey for a little 
less than three months, and there still are large areas of New 
Jersey's culture, history, politics and law that I am still 
absorbing. If I cannot answer your questions today, I will get 
back to you with responses as soon as I can.
    Just about three months ago, here in New Jersey, Governor 
Corzine signed Executive Order 5, creating the New Jersey 
Office of Homeland Security and Preparedness as a Cabinet-level 
position. According to the Executive Order, our responsibility 
is ``to administer, coordinate, lead, supervise New Jersey's 
counter-terrorism and preparedness efforts.''
    We are charged with coordinating emergency response efforts 
across all levels of government, law enforcement, emergency 
management, non-profit organizations, other jurisdictions, and 
the private sector, to protect the people of New Jersey.
    The Executive Order also requires that we function as the 
Governor's clearinghouse for all legislation, both state and 
Federal, related to counter-terrorism and preparedness issues.
    I come here today believing we will also build a strong 
relationship with you, our Representatives in Congress, just as 
we are developing a strong working relationship with the state 
legislature.
    My job is to bring all of New Jersey's homeland security 
efforts into a coordinated and unified whole. While doing this, 
I am focusing on three watch words, inclusiveness, 
regionalization and transparency. Inclusiveness means that all 
relevant agencies, state, Federal, local and private sector, 
must have a seat at the table.
    Regionalization refers to concerns that overlap between 
municipalities and counties, even between New Jersey and our 
neighboring states.
    As you know, our Urban Area Security Initiative, or UASI, 
region already follows that regional approach. The funding 
allotted to Newark and Jersey City does not just pay for 
initiatives in those cities. Instead, it is shared among those 
counties and the six surrounding counties--those cities and the 
six surrounding counties. It is invested with the awareness 
that a regional boundary crossing approach is the best way to 
protect northeastern New Jersey.
    The Federal Government's revised strategy for 2006 appears 
to validate the cooperative regional approach that New Jersey 
has been following.
    My third watch word is transparency. It means simply enough 
that the people of New Jersey and you, our Federal partners, 
must be able to understand what my office does. Our actions 
must be totally open, explainable to the average person, and 
understood by everyone, in short, making us the single-stop 
shopping and honest broker for homeland security in the state.
    We work closely with the Office of Emergency Management, 
which is still directed by Colonel Rick Fuentes and still falls 
under the New Jersey State Police. In that regard, the role of 
my office, in short, is to make sure the OEM office of New 
Jersey does its job properly and has the appropriate resources 
it needs.
    Since I took office, we have been involved in a number of 
key issues, including hurricane preparedness, pandemic, flu 
preparedness, interoperability, continuity of operations, and 
continuity of government, and, of course, our Federal Grants 
Program. The grant programs, in particular, are an issue I 
would like to discuss with this committee in greater detail.
    As you are well aware, my office is preparing to distribute 
Federal homeland security grants throughout New Jersey. Our 
Federal partners have given us good news and bad news this 
year. We are receiving a large share of a smaller pie. Funds 
for our UASI region, covering Jersey City, Newark and the 
counties of Bergen, Essex, Hudson, Morris, Passaic and Union, 
is up approximately 77 percent from the year before, to $34.4 
million. Last Friday, I met with the UASI Steering Committee to 
discuss our spending plans.
    Mr. Chairman, I am prepared to discuss in more detail some 
of the programs within the northern region at this time, or 
offer it as an addendum for the sake of brevity.
    But, New Jersey's preparedness needs are not limited to the 
UASI region. They cover our entire state, and this year we will 
only receive $17.7 million in homeland security grant funds to 
be distributed statewide. This is a decrease of more than 52 
percent from the year before.
    I am aware that New Jersey's homeland security needs will 
always exceed the availability of funds, but it is very 
disappointing that the entire pot of Federal funding to the 
state shrank by almost 30 percent this year.
    I certainly do not believe we are less at risk today than 
before 9/11. It has been our increased vigilance and 
preparedness that has made us safer against this national 
threat, not because the enemy has stopped planning against us. 
This is the wrong time to reduce homeland security funds. I 
plan to work with you to reverse this Federal trend.
    Now, this hearing has been called to discuss the extent to 
which Northern Jersey is prepared for a catastrophe. As a 
newcomer, I am still learning, but I'm also able to see 
objectively and with an outsider's perspective. Since taking 
office, I have worked extensively with OEM and the State and 
the Federal enforcement and intelligence community. I must say 
that in all my years in government I have not seen the level of 
information sharing that we are experiencing today. This is a 
tremendous positive.
    However, there are some gaps in our response capabilities 
and the areas that still need improvement. Several of these 
areas have to do with the difficulty in evacuating large 
numbers of residents, identifying adequate emergency 
sheltering, and the exact location of special needs people, but 
we are working with the county OEMs to address these issues.
    It is my belief that New Jersey's emergency responders in 
the northern part of the state have made unprecedented regional 
use of Federal funding, and as a result are well prepared to 
handle virtually any crisis.
    In closing, let me say that in creating the new Office of 
Homeland Security and Preparedness, and asking me to head it, 
Governor Corzine has given me the opportunity to make a 
difference in the lives of New Jersey's almost 9 million 
citizens. I relish the opportunity, and pledge to work with 
your Subcommittee towards ensuring that all our goals are met.
    Thank you.
    [The prepared statement of Mr. Canas follows:]

                  Prepared Statement of Richard Canas

    Thank you very much Chairman Reichert, Congressman Dent and 
Congressman Pascrell and members of the Subcommittee on Emergency 
Preparedness, Science and Technology.
    This morning I want to outline the responsibilities of my new 
office and provide you with my own perspective on northern New Jersey's 
preparedness for the various risks we face.
    Before I begin, I want to set a context for your expectations. I 
have been at my job in New Jersey for a little less than three months 
and there are still large areas of New Jersey culture, history, 
politics and law that I am still absorbing. So, I ask for your 
patience.
    If I cannot answer your questions today, I will get back to you 
with responses as soon as possible.
    As you know, Governor Corzine signed Executive Order #5 in March, 
creating the New Jersey Office of Homeland Security and Preparedness as 
a cabinet-level agency.According to the Executive Order, our 
responsibility is "to administer, coordinate, lead and supervise New 
Jersey's counter-terrorism and preparedness efforts."
    We are charged with coordinating "emergency response efforts across 
all levels of government, law enforcement, emergency management, 
nonprofit organizations, other jurisdictions and the private sector, to 
protect the people of New Jersey."
    The Executive Order also requires that we function as the 
Governor's clearinghouse for all legislation--both state and federal--
related to counter-terrorism and preparedness issues.
    I come here today believing we will also build a strong 
relationship with you, our representatives in Congress . just as we are 
developing a strong working relationship with the State Legislature.
    For example, Assemblywoman Joan M. Quigley, chairwoman of the 
Homeland Security and State Preparedness Committee--joined me on a tour 
of one of this region's critical infrastructure sites--a chemical 
manufacturing facility in her district.
    And I have met Assemblyman Frederick Scalera, the committee's vice 
chair . on several occasions, drawing on his role as a Legislator and 
as a Deputy Fire Chief who plays a key role in our Urban Area Security 
Initiative--or UASI--region.
    You should know that my door is always open. I invite you to 
contact me directly or through my office's Legislative Liaison, Nick 
DiRocco. Nick will be spearheading our review of legislation, and 
helping us make the appropriate recommendations to the Governor.
    My job, then, is to bring all of New Jersey's homeland security 
efforts, at all levels, into a coordinated and unified whole.
    While doing this I am focusing on three watchwords: Inclusiveness, 
Regionalization and Transparency.
    "Inclusiveness" means that all relevant agencies--state, federal, 
local and private sector, must have a seat at the table.
    "Regionalization" refers to concerns that overlap between 
municipalities and counties,even between New Jersey and our neighboring 
states.
    As you know, our UASI region already follows that regional 
approach.
    The funding allotted to Newark or Jersey City does not just pay for 
initiatives in those cities . instead it is shared among those cities 
and the six surrounding counties. It is invested with the awareness 
that a regional, boundary-crossing approach is the best way to protect 
Northeastern New Jersey.
    The Federal Government's revised strategy for 2006 appears to 
validate the cooperative, regional approach that New Jersey had been 
following.
    My third watchword, "transparency" means--simply enough--that the 
people of New Jersey and you, our federal partners, must be able to 
understand what my office does. Our actions must be totally open, 
explainable to the average person and understood by everyone - in 
short, the single-stop shopping and honest broker for homeland security 
in the state.
    To serve these needs . our office has a Division of Operations and 
a Division of Preparedness. Our Deputy Director for Operations, Mr. 
John Paige, will join us during the first part of July. Mr. Paige is a 
veteran FBI Special Agent and counterterrorism expert from Northern New 
Jersey. I will shortly be naming the Deputy Director for the 
Preparedness Division.
    We work closely with the State Office of Emergency Management--
which is still directed by Colonel Rick Fuentes, and still falls under 
the New Jersey State Police.
    In that regard, the role of my office--in short--is to make sure 
NJOEM does its job properly, and has the appropriate resources it 
needs.
    That coordination and leadership role is similar to what the 
Office's response would be to any emergency--a flu pandemic, for 
example.
    In that case, the New Jersey Department of Health and Senior 
Services, under Commissioner Fred Jacobs, would lead the state's 
response to the human health issues.
    And the New Jersey Department of Agriculture, under Secretary 
Charles Kuperus, would lead the response to animal health issues.
    My job is to make sure that all state agencies are working together 
correctly during such emergencies.
    Since I took office we have been involved in a number of key 
issues--including hurricane preparedness, pandemic flu preparedness--
interoperability . COOP and COG, or Continuity of Operations and 
Continuity of Government . and of course our federal grant programs. 
The grant programs, in particular, are an issue I would like to discuss 
with this committee in greater detail.
    As you are well aware, my office is preparing to distribute federal 
homeland security grants throughout New Jersey.
    Our federal partners have given us good news and bad news this 
year: We are receiving a large share of a smaller pie.
    Funds for our UASI region, covering Jersey City, Newark and the 
counties of Bergen, Essex, Hudson, Morris, Passaic and Union, is up 
approximately 77 percent from the year before, to $34.4 million 
dollars. Last Friday I met with the UASI steering committee to discuss 
our spending plans.
    But New Jersey's preparedness needs are not limited to the UASI 
region--they cover our entire state. And this year we will only receive 
$17.7 million in homeland security grant funds to be distributed 
statewide. This is a decrease of more than 52 percent from the year 
before.
    I am aware that New Jersey's homeland security needs will always 
exceed the availability of funds . but it is very disappointing that 
the entire pot of federal funding to the states shrank by almost 30 
percent this year.
    I certainly do not believe we are less at risk today than before 9-
11. It has been our increased vigilance and preparedness that has made 
us safer against this national threat, not because the enemy has 
stopped planning against us. This is the wrong time to reduce homeland 
security funds. I plan to work with you to reverse this federal trend.
    Now--this hearing has been called to discuss the extent to which 
Northern New Jersey is prepared for a catastrophe.
    As a newcomer I am still learning--but I am also able to see 
objectively, and with an outside perspective.
    Since taking office I have worked extensively with NJOEM and the 
state and federal enforcement and intelligence community. I must say 
that in all my years in government, I have not seen the level of 
information sharing that we are experiencing today. There are some gaps 
in our response capabilities and areas that need improvement.
    Several of these areas have to do with the difficulty in evacuating 
large numbers of residents, identifying adequate emergency sheltering 
and the exact location of special needs people, but we are working with 
the county OEMs to address these issues.
    It is my belief that New Jersey's emergency responders in the 
northern part of New Jersey have made unprecedented regional use of 
federal funding and as a result are well prepared to handle virtually 
any crisis.
    In closing, let me say that in creating the new Office of Homeland 
Security and Preparedness and asking me to head it, Governor Corzine 
has given me the opportunity to make a difference in the lives of New 
Jersey=s almost nine million citizens.
    I relish the opportunity and pledge to work with your subcommittee 
towards insuring that all our goals are met. Thank you.

    Mr. Reichert.
    Well, thank all the witnesses for their testimony. This is 
an impressive group. I have had the opportunity to work with 
sheriffs, and police chiefs, and emergency managers across the 
Nation when I was a Sheriff in King County in Seattle, and it's 
great to see a couple sheriffs, and police chiefs, and fire 
chief here, and Emergency Management Director, all with us 
today. All of your testimony is--we were taking notes, and I 
always, as a police officer, a detective, and a sheriff, I 
always remember the Federal Government, you know, wanting to 
help. I mean, they came to us and said, we are from the Federal 
Government and we are here to help.
    I've only been in Congress 18 months, and now I find myself 
on the other side of that saying, we are from the Federal 
Government, and we are here to help, and Bill, and Charlie and 
I, my two partners up here today, are still--we do want to 
help, we are trying to figure out what the role is. We know the 
job happens in your communities, in your local communities, the 
cop on the beat, the firefighter, he or she, and their fire 
trucks are out there protecting our communities every day, and 
what I hear you say today are words that we've heard over and 
over again as we've held hearings.
    And, I just want to list off a few of those, and I've heard 
over my whole career as a law enforcement officer in the 
Seattle area, equipment, training, funding, and now personnel 
is the big deal. I mean, we all talk about the cops office 
getting cut, and now some of the emergency training for 
firefighters are laid on the table and we're fighting to keep 
those fundings. The Federal Government is always reaching out 
and saying, we want your help, we need your help, we want you 
to be there, you are a part of the team, help us protect this 
country, protect our community, keep our citizens safe, but on 
the other hand we are taking money away from the local people 
in order to get that job done, and it's wrong.
    The biggest thing I see out here too is the relationships, 
and the Sheriff mentioned that in this area of the country the 
turf wars don't seem to be a problem, and that's great to hear. 
We still battle with that back in the Seattle area.
    One of the things I want to focus on in my line of 
questioning to begin with is interoperability. When I held my 
first hearing as the Subcommittee Chairman a few months ago, I 
remember someone from the Federal Government who was testifying 
saying, ``Mr. Chairman, we've been struggling with the issue of 
interoperability for ten years, trying to find a way, something 
to do,'' and Bill was there.
    And, I said, ``Interoperability has not been a problem for 
ten years, it's been a problem since 1972 when I became a cop, 
I can remember trying to get my radio to work and wrestling 
with the man that had a knife that was trying to stab me and I 
couldn't get help.'' So, interoperability and the ability to 
communicate is something that first responders have been 
dealing with and struggling with for a long, long time, and 
it's time we do something about it, and we are doing something 
about it. We have some legislation.
    But, I want to ask--but, I hope it will spur this movement 
to get somebody motivated in the Department of Homeland 
Security, and someone held accountable, to get the issue of 
operability and interoperability on its way to a resolution.
    But, I just have a couple of questions for anyone on the 
panel, since it applies to all of you. Has your county 
conducted or participated in a statewide baseline study of your 
state's interoperable communications? Anybody who wants to--has 
there been a study of what exists today?
    Mr. Speziale. Mr. Chairman, let me first let you know this 
will be one Sheriff that won't be going to Congress, that's for 
sure. I wish you well.
    Mr. Reichert. Don't ever say never.
    Mr. Speziale. I don't know why you did that.
    As far as our state goes with interoperability, it becomes 
a situation where at least in this county there is a two-prong 
situation. We have to worry about operability, as you heard 
from Chief Postorino, and we also have to worry about 
interoperability. The situation as we have right now, as far as 
operability goes, we have so many aspects of voice over IP, 
there's so many different aspects that we could really 
investigate and deal with, satellite transmission, God forbid 
we lose power, or there's certain aspects of radio systems that 
are out there, we don't have that here. We have a situation 
where interoperability is not something that I can talk to the 
Paterson Fire Department, although we have a coordinated team 
effort here in Passaic County, where we all work together very 
closely.
    Mr. Reichert. Right.
    Mr. Speziale. We cannot communicate together.
    The best we can do is on our cell phones. We have satellite 
phones, should we have to talk, but that's me, the Prosecutor, 
and possibly each of the Chiefs.
    Mr. Reichert. Do you have 800 megahertz?
    Mr. Speziale. We have 800 megahertz, but we do not have a 
truncated system.
    Mr. Reichert. OK.
    Mr. Speziale. And, here's what I'm faced with. Last--two 
weeks ago, I was in a situation where in the middle of the 
night one of our repeaters went down. We were unable to have 
our patrol cars communicate with our dispatch center, our 
emergency 911 center, from outside the vehicle. They could 
communicate on a low-band radio, which we had as a back-up 
system, an old antiquated system, and I had to, in the middle 
of the night at 4:00 in the morning, get my partner from Essex 
County to send me a part for the repeater so that somebody 
could climb the tower and just get us up in a band-aid 
approach. That was just on an every-day situation. Imagine if 
we were in a disastrous situation what we would have been faced 
with if I couldn't get Armando to get me the piece to get up in 
the tower and get us back communicating.
    Mr. Reichert. We have the same problem in the east side of 
our county, King County, our deputies have to carry two cell 
phones, plus their radio, in case they run out of coverage.
    Mr. Speziale. And, I don't think that the world realizes 
that we all talk about having those cell phones on us, but I'm 
a former--I'm retired from the New York City Police Department, 
I was there for the `93 bombing, I was there for the World 
Trade Center disaster, the cell phone towers went down, the 
telephone lines went down. We were unable to communicate 
period. We had no way. There was confusion. We had to talk face 
to face, that was the only way we were able to communicate.
    We have to come up with a system with today's world, with 
like I said, voice over IP. All the things that we have 
available to us with satellite communications, we have to come 
up with a new system that all of us in this field, and in this 
arena, can communicate, because there's going to come a time 
that it's just a matter of when, and these aren't going to cut 
it.
    Mr. Reichert. Right.
    Sheriff, do you want to respond, and then we'll go to Mr. 
Pascrell.
    Mr. Fontoura. We are probably making a little more progress 
in the interoperability area than Passaic has. We have, in 
conjunction with the Department of Homeland Security, State 
Police and the Attorney General, we have been able to work--the 
interoperability person that is handling it for them happens to 
be working us, which is Lieutenant Maley, also happens to be 
the FCC Commissioner for the entire East Coast, which is a nice 
thing to have in your office, as you know.
    Mr. Reichert.
    Mr. Fontoura. But, we've done well, we are able now, we 
started the first part of that program, where the Jersey City 
Fire Department, Newark Fire Department, our Department, Newark 
Police Department, we are able to communicate with one another, 
and, hopefully, we are going to bring that sort of the 
beginning, if you will, we are going to bring that to the rest 
of the state and work it in conjunction with the Department of 
Homeland Security more--additional funding, we need an awful 
lot of additional funding, but we are making some progress. 
That is a priority for us, priority for the state, it's a 
priority for the rest of us, and we intend to continue and make 
some progress in the interoperable because it's very crucial 
for all of us, obviously.
    Mr. Reichert. I have other questions in this area, but I'll 
reserve those now and recognize Mr. Pascrell for his questions.
    Mr. Pascrell. Thank you, Mr. Chairman.
    The question of interoperability, as the Chairman pointed 
out, has been at the center of a lot of discussion in the 
Congress of the United States, and I'm glad that--I think it 
was you, Chief Postorino, that mentioned the importance and 
significance of getting the cooperation from the FCC. We had 
them before us in Committee. They have ignored this, forget 
about, you know, what happened before 9/11 is an indication of 
their being deaf to the entire situation. You know, this is 
serious business, spectrum, broad spectrum.
    These local--I mean, you heard the Chief talk about 
limousine service cutting in on your communication, I mean, 
this is ordinary communication. When you start to talk about 
interoperability between the agencies, we have a major problem 
throughout the United States of America, and we are imploring 
the FCC to come forward and help us in that regard.
    I know it's important as to what four letter words are out 
on the TV and the radio, that's critical, this is more 
critical. This defense is going to determine life and death. 
This is going to determine life and death.
    Mr. Canas, you just got your job, and I want you to tell 
the audience here, and the other Congressmen, just one 
sentence, give us a brief background of where you came from.
    Mr. Canas. Thirty-four years of law enforcement at the 
Federal and local level, as well as intelligence, four years at 
the White House as Director of Counter-Terrorism and Counter-
Narcotics, a year as Special Assistant to the CIA, and two 
years as Director of the National Drug Intelligence Center, 
that's what got me here.
    Mr. Pascrell. So, you bring a wealth of experience to this 
particular position, and we are very fortunate that the 
Governor made that decision to bring you to New Jersey. We are 
looking with excitement to the future.
    But, you said something very interesting in your testimony 
about the issue of transparency, and the question, you want 
homeland security in New Jersey to be a transparent operation 
for the public, so that the public understands what's going on 
for most part.
    How important do you think that is?
    Mr. Canas. I think it's critical. I think that recently I 
toured the southern states in preparation for a hurricane, and 
I found glaring apathy among the public. I think it's critical 
that in a congested area as the northern part of New Jersey is, 
with the multitude of languages that are out there, and 
cultures that are out there, that our policies and our 
procedures are clear to the public.
    I think that during an evacuation, for example, which is 
something that we'll probably face during any calamity, 
communications with that public, and I've always equated public 
service with public trust, and that means if you have to get 
these citizens to trust you, and be clear as to what the 
procedures are.
    Mr. Pascrell. Well, you know, we are living in a very 
peculiar time in Washington, and that is the subject of debate 
many times has been transparency. Members of the Congress don't 
know what's going on half the time, and the question is, what 
do we want the public to know and what does the public have a 
right to know. I think that the public has a right to know a 
lot more than we provide them, and a lot is being protected 
under the guise of secrecy and classified information, that's a 
lot of bologna. We read about it in News Week magazine, after 
coming from, you know, a classified meeting many times. Is this 
what you are talking about?
    Mr. Canas. That's part of it, Congressman. You know, prior 
to joining the state team, I was in the private sector for a 
long time working on public information, the synthesis of 
public information, and you are absolutely correct, some people 
claim that 99 percent of the information that we need to know 
to do our job is out there in open source, and that means it's 
available, readily available, to the public, it just needs to 
be credible, and it's for us to stamp it with a Good 
Housekeeping Seal of Approval that this is credible information 
that the public should know.
    Mr. Pascrell. Chief Rotonda, what do you think is the 
proper role of the Federal Government in dealing in terms of 
responsibilities, overall responsibilities, with protecting the 
public, in your estimation?
    Mr. Rotonda. I'd like to take it from a municipal point of 
view.
    Mr. Pascrell. Put the microphone closer to you, please.
    Mr. Rotonda. I'm sorry.
    Mr. Pascrell. Thank you.
    Mr. Rotonda. The role--I feel the role of the Federal 
Government in protecting the public, I feel that the public 
feels let down right now with the first responders, or I just 
feel that they really don't know everything that's going on, 
and I feel we have to at some point let the public know.
    Funding that is available, are we capable of doing the job? 
I don't think they really know, the public really knows exactly 
what the Federal Government is doing, and what we are even 
doing on a municipal level. I think they feel more secure than 
they really should be.
    Mr. Pascrell. We'll have a second round, I guess, right, 
Mr. Chairman?
    Mr. Reichert. Yes.
    Mr. Pascrell. Second round of questions.
    We have, just in conclusion for this first round, when you 
look at the infrastructure of the State of New Jersey, when you 
look at the transit system in the northeast, and you look at 
the Turnpike, or the Amtrak, or Ports of Elizabeth and Newark, 
the critical utility infrastructure, 21 percent of the fuel 
consumed nationally comes through that area that we referred to 
before, the area down in Linden, that process. It processes 
over 40 percent of the jet fuel used in commercial airports. 
The fallout from a terrorist attack would be unbelievable.
    When you look at the petroleum industry in the State of New 
Jersey, you are talking about heavy duty, critical industries. 
When you are dealing with the chemical, as I said before, or 
the pharmaceutical industry, there's 70,000 people working in 
the pharmaceutical industry in the State of New Jersey. There's 
a major portion of our infrastructure, and I have one question 
to each and every one of you.
    I mentioned seven areas, just yes or no, are we prepared 
right today to protect those seven areas?
    Mr. Canas, yes or no?
    Mr. Canas. Yes.
    Mr. Pascrell. Mr. Rotonda?
    Mr. Rotonda. No.
    Mr. Pascrell. Chief Rotonda?
    Mr. Rotonda. No.
    Mr. Pascrell. Chief?
    Mr. Rotonda. No.
    Mr. Pascrell. Chief Postorino?
    Mr. Postorino.. No.
    Mr. Pascrell. Sheriff Fontoura?
    Mr. Fontoura. Somewhat, but not exactly. If Roger Clemens 
could throw a grenade from the Pulaski Skyway and hit a major 
area that would create a lot of problems for all of us.
    Mr. Pascrell. There's a future Congressman.
    Mr. Reichert. There' a future Congressman, if I ever heard 
one.
    Mr. Pascrell. Sheriff Speziale.
    Mr. Speziale. I agree with Armando. We are not there yet.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Reichert. Thank you, Mr. Pascrell.
    The Chair recognizes Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman, and Chief Rotonda, you 
mentioned that New Jersey has the highest property taxes in the 
Nation, and, in fact, just the other day, we have many New 
Jersey residents, former New Jersey residents, who now live in 
Pennsylvania, and we're the fastest growing region in the 
State, and my friend said to me from New Jersey that his 
property taxes in Pennsylvania were as high as they were in New 
Jersey.
    Looking at his mansion, I said, yes, but your house is now 
three times as large. I had to get that off my chest.
    First, Mr. Canas, how large is your office? In 
Pennsylvania, our Homeland Security office is quite small, just 
a handful of people. How many people do you have working in 
your office?
    Mr. Canas. I think after this budget, if we get one 
through, it should be a little under 100.
    Mr. Dent. OK, that's considerably larger than Pennsylvania, 
I mean, much, much larger.
    Who administers your counter-terrorism funding? Do you 
handle it, or does your State Office of Emergency Management 
process those homeland security grants and terrorism 
preparedness grants that come down?
    Mr. Canas. The Federal grant program is administered by my 
office. I distribute it, I oversee it, and I coordinate with 
the counties their grant programs.
    Mr. Dent. OK.
    In my state, and in many states, I'm not as familiar with 
New Jersey, but last time I checked around 80 percent of the 
Federal terrorism preparedness grants that had been 
appropriated over the last three or four years had not been 
drawn down. Some of the monies may have been obligated or 
allocated, but they had not been drawn down by the states.
    What's the status in New Jersey?
    Mr. Canas. I don't know, Congressman, I'll have to get back 
to you with the exact numbers. I do know that the majority of 
it has been obligated, and for the most part has been drawn 
down.
    Mr. Dent. Nationally, about one third of those terrorism 
preparedness grants, that would be the UASI fund, the state 
homeland security grants, and law enforcement grants, those 
dollars, I'm told about a third of those grants that had been 
drawn down by the states have been spent on interoperability. 
Is that about where you are in New Jersey, are you using--where 
are you spending most of that money today?
    Mr. Canas. Again, my guess, because I'm new to the process, 
probably Sheriff Fontoura could answer that, but in the UASI 
regions my understanding is that a major chunk of that money 
has gone to the interoperability problem.
    I don't know if you have a comment on that.
    Mr. Dent. Nationally, it's supposed to be about a third of 
the monies that have been spent.
    Mr. Fontoura. That's probably about accurate, somewhere 
between 25 and 40 percent.
    Mr. Dent. And, perhaps, one of the----
    Mr. Fontoura. I might also add that every penny that we 
have gotten from Essex County, through the graces of your 
committee and Congressman Pascrell, we spend our money. When we 
get it figured out, Chief Rotonda gets his share, and we make 
sure everybody gets their share, but there's nothing in the 
bank, I can assure you. Whatever we get we spent, we spent it 
well, on behalf of the public of this county.
    Mr. Dent. And, with respect to interoperability, and one of 
the sheriffs or chiefs might be able to answer this, in 
Pennsylvania I have the northeast Pennsylvania Counter-
Terrorism Task Force in my region, several counties, and we 
talk about these issues of interoperability. And, one thing 
that keeps coming up is that it's hard for us to get as 
interoperable as we'd like for topographical reasons, 
geographic reasons, if some counties have lots of mountains 
and, of course, their systems won't function as well as some of 
the folks down in the urban areas. Do you have those same types 
of issues here in Jersey?
    Mr. Fontoura. Yes, we do, particularly, here.
    Mr. Speziale. We have a--I was a chief in Bucks County 
after I retired from New York City, so I understand the 
complexity of Pennsylvania as well, but we have a situation 
here in New Jersey where we are on all different bands, from 
low band, to VHF, to UHF, to 800 megahertz, because of the 
terrain. That's why I say we have to come up with a truncated 
system so that we can all talk and communicate together. That's 
what really needs to be developed, and with the technology 
that's out there, Congressman, I mean there's just so much new 
technology out there, that we can communicate with someone on 
the moon, but I can't talk to the fire chief down around the 
corner.
    Mr. Dent. One thing, too, and I should probably go back to 
Mr. Canas, it was pointed in your testimony that the UASI 
funding this year, this Newark, New Jersey Metropolitan Area 
received a significant increase in UASI. What do you attribute 
that increase to? AS you know, our friends across the Hudson 
River received a significant reduction in New York, what do you 
think, what was it about your proposals that led to this 
increase?
    Mr. Canas. My guess, Congressman, and I say it's a guess 
because we don't have all the information from the peer review 
process, we are still waiting for that, but our early analysis 
indicates that the majority of the emphasis is because of the 
high risk area that Northern New Jersey reflects. We are locked 
at the hip with New York.
    Mr. Dent. Right.
    Mr. Canas. We are a threat to New York City, and the high 
density of population, I'm sure that was factored in, the high 
number of chemical plants. So, I would say risk, number one, 
but I also need to point out that they have done an admirable 
job in the process. They reflect less than 1 percent in 
salaries and overtime in their grant submissions, that means 
their sustainability is very credible. Their ability to merge 
their grant submissions into ongoing state programs, which gets 
high marks also with DHS, is another reason that they did a 
total turnaround from last year's numbers to this year's. I 
think they've done a very credible job in the UASI region. I 
wish I could say the same for the rest of the state, but for 
the UASI, certainly in the northern part, I think a lot of the 
credit goes to the administration of the UASI grant program.
    Mr. Dent. Thank you, I'll yield back.
    Mr. Reichert. Thank you, Mr. Dent.
    I just have a follow-up question on the concept of the 
Federal Government's role. Most say, the vast majority of first 
responders agree that they don't want the Federal Government to 
come in and take over a disaster response scene, but was it--it 
would just be interesting to hear, we know it has to be a 
partnership, Federal Government and, you know, we always hear 
this thing from the Federal, especially FBI or U.S. Attorneys, 
you know, they always come in and say, this has to be a 
Federal, state and local partnership, but I'm not sure they 
really understand it.
    And, I just am curious to know from the panel's point of 
view, what's the appropriate role of the Federal Government 
when it comes to training, and planning, and interoperability, 
is it setting standards? We know that funding has a lot to do 
with helping you, but what's the role the Federal Government 
can really play to help you?
    Mr. Fontoura. Well, I think that the Federal Government has 
a very critical role, and here, speaking just for our area, we 
have a Joint Terrorism Task Force that we work with our 
Department of Homeland Security, and it was a little shaky 
before Mr. Canas came on board from that perspective, but it's 
been good with our local folks, you know.
    The FBI here in our state works well with us, the U.S. 
Attorneys Office, you mentioned turf wars back in your area, 
perhaps, you are still a little bit stuck in that. You know, 
we've come to the realization that we are all in the same army, 
fighting the same war, so the turf wars, if they existed once 
when I was with the New York City Police Department, yes, I 
experienced turf wars with the feds and everyone else.
    Mr. Reichert. Yes.
    Mr. Fontoura. They are no longer here in this area, I don't 
believe we have turf wars. I think when we all come to the 
table, we all come to the table prepared to do the best that we 
fan on behalf of our citizens, and the Federal Government has a 
role to play. Obviously, the information that they develop, 
which is very critical for us to have, you know, they are 
always very reluctant to let go of it, I think now it's 
important that they understand that we know when they know. So, 
I think by and large we are getting the information as quickly 
as we possibly can, so from that respect I think working 
together is very critical and very crucial.
    I believe here the Federal Government understands that, and 
we've been doing that, and I expect it's going to continue to 
even a greater degree now with Mr. Canas and his philosophy.
    Mr. Reichert. What about a national clearinghouse for this 
technology? There's 800-900 vendors out there we know that have 
some sort of a solution, a piece of the solution to 
interoperability and operability, some standard that may be set 
by Congress across the country for interoperability, not to say 
that any one jurisdiction has to have a particular plan, 
because they all have to be different for every neighborhood 
and community, we recognize that, but a clearinghouse to help 
police agencies, fire agencies, emergency managers, weed 
through some of this technology that's out there.
    Mr. Speziale. Myself and Sheriff Fontoura were at the 
Homeland Security Summit that was handled by Senator Clinton. I 
don't think there's an emergency management manager here in 
this audience that does not have a plan. The problem is, we 
need someone to make Washington understand how serious this is 
country-wide, whether it be a communication tsar, whether it be 
one individual, or whether it be a collective team, we need 
interoperability, somebody needs to realize that we have to get 
the vendors and the players all together in one room to get 
this problem resolved.
    Mr. Reichert. Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Sheriff Fontoura, you mentioned an evacuation plan, this is 
important, this is critical. You heard the gentleman from 
Pennsylvania mention it also, because, you know, in our area it 
would be go west, go west.
    Are we prepared, God forbid, if there's a major attack, or 
if there's a major natural catastrophe in New York, are we 
prepared to handle those folks that would come across and 
through the tunnels and bridges?
    Mr. Fontoura. To a limited degree, yes, but I think that as 
I mentioned during my testimony, I think if it becomes a real 
serious problem where hundreds of thousands of people are 
coming across, no, we are not prepared. There's not enough 
sheltering, there's not enough, you know, we've marked our 
escape routes, as all of you know, and people always ask me, I 
see you have evacuation, but where is it going, where it is 
going? I said, well, part of that plan is, I tell people, I 
remind people that there will be an officer or a CERT, 
Community Emergency Response Team member, to tell you where you 
are going to go, because we really don't know. We don't know 
what type of emergency it's going to be, it may be a school 
auditorium in Livingston, it may be in the Meadow Lands Arena, 
we don't know, but there will be people--you just follow the 
signs and at some point you will see an officer if the plan 
goes according to the way we've drawn it up, you should see a 
police officer, firefighter, or a CERT member, to direct you 
which way you should be going.
    Do we have enough? No. On a limited basis.
    Mr. Pascrell. Mr. Chairman, excuse me, we really didn't 
focus on the problem of evacuation, until we saw what was being 
done and what was happening in New Orleans, and with Hurricane 
Rita in the Houston area, the Galveston area, a very serious 
problem of turning all roads one way so people could get out of 
there, nothing like we have down on our own shores when there's 
a major storm approaching.
    The other thing you said, Sheriff Fontoura, was about the 
business community stepping up to the plate. We are going to 
have someone on the second panel that is going to tell the 
audience and members of the Congress what the business 
community in Jersey is doing in partnership with the state and 
Federal Governments and local governments, to provide security 
for the very infrastructure that exists in our state. And, I 
hope you'll be able to stay for that.
    Sheriff Speziale, I'm very interested, as you well know, in 
intelligence gathering, and I'm very disappointed, not with our 
intelligence community, but in the fact that it has been warped 
by Federal policy. Is intelligence gathering, disseminating 
intelligence, a Federal responsibility, or should state and 
local governments play a larger role in that gathering of 
intelligence?
    Mr. Speziale. Well, I think, Congressman, it goes back to 
that we all have--we all have one common goal, to protect our 
citizens, and as Armando said, it may come from the hood of a 
patrol car, it may come from the informant in the jail, it may 
come from the Federal intelligence agency that provides the 
information. I think that we all have to collectively work as a 
team to make sure that we share in intelligence. It can't be a 
one-way street, it cannot just be one agency, we have to work 
collectively as a team to make sure that information is 
disseminated.
    I am fortunate, because I still consult for the Department 
of Justice in regards to wire tap investigations, so I have 
that top secret clearance.
    Mr. Pascrell. Right.
    Mr. Speziale. However, there are other chiefs throughout 
the communities that don't get that top secret clearance, and 
there is a problem with that information sharing because as you 
know there are certain sensitivities in that information that 
can't go to certain levels of secret and top secret, and 
there's areas that can't be shared, but we have to share this 
among everybody.
    Mr. Pascrell. The basis of my question was, what is 
happening in London, not only since the subway bombing, but 
before that, there is a very different system that exists in 
the United States of America, in London those foot patrol are a 
very key part of the intelligence gathering.
    I don't see that. I see more of a top-down situation in our 
country, and which I think is very dangerous, to be very honest 
with you.
    Mr. Speziale. And, you are absolutely right, where we have 
to realize that the police officer on the street is the person 
that interacts more with the public, recognizes what's going on 
and what are the changes in the neighborhood that that person 
is patrolling, and that is the person that will be able to 
provide that first tier of intelligence to come up the chain of 
command, instead of the tiers going down the chain of command.
    Mr. Pascrell. Let me ask you----
    Mr. Fontoura. Can I?
    Mr. Pascrell. Sure, go ahead.
    Mr. Fontoura. The public has a very definite role, probably 
the most crucial role. If you think back to the Prudential, the 
intelligence that we've been able to get since the Prudential 
threat came along is that there were a couple of people that 
were casing the Prudential building for about three months. 
They were having coffee in a luncheonette right across the 
street, which by the way I go by almost twice a week. There are 
officers there, there are cops there, but no one, these fellows 
were making notes, writing things, taking pictures, taking 
photos of the building, the garage entrance, but yet no one 
thought enough, and their conscience wasn't raised enough to 
say, let me let the police, there's police officers there all 
the time, let me just tell this cop what I think is going on 
here.
    Either they thought, well, I don't want to be a pain, or I 
don't want to, you know, get involved with this. This is 
nonsense. You are going to see it before we see it, so if you 
see something out of the ordinary, if it doesn't fit, give us a 
call. The worst that could happen is, it's nothing, we'll put 
your mind at ease.
    Mr. Pascrell. Chief Rotonda?
    Mr. Rotonda. I was saying, Congressman, it has gotten 
better since 2001 for the foot patrol officer. We do have 
resources now, we have places where we can report suspicious 
activity. That wasn't the case before 2001.
    So, it's not at its greatest level, but it is better. 
However, I do feel that it's the Federal Government's 
responsibility ultimately to disseminate information down to 
the police departments.
    As the Sheriff had said, we can't all get top secret 
clearance. I attempted myself and they said it wasn't necessary 
for me to have it. So, you know, again, back to your question, 
it is better now. Could it get much better? Yes, it can, but it 
is an improvement.
    Mr. Reichert. Mr. Dent?
    Mr. Dent. Just a quick comment on the quality of 
information you are getting from Washington. We all talk about 
the information sharing, intelligence sharing, and I think 
we've done a better job of that horizontally at the Federal 
level. And, it's clear that you are doing a very good job of it 
here in New Jersey among yourselves.
    But, I'm worried about this vertical level of information 
sharing. In Pennsylvania again, my State Homeland Security 
Office is often talking to me or complaining to me about the 
types of information coming down from Washington, from the 
ESOC, Elementary Security Operations Center, down to them, it's 
often--it's in large quantity, it's not well qualified, it's 
not as credible as it needs to be, and consequently, it's not a 
very useful interaction.
    And, I was just curious what your thoughts were, Mr. Canas, 
on that issue.
    Mr. Canas. I couldn't agree more. The information we get 
from Washington, specific to New Jersey, tends to be Pablum. We 
don't get enough specifics, but, you know what, I don't believe 
there are a lot of specifics at the Federal level. Having 
worked in that environment, I can tell you that the 
intelligence community does an outstanding job looking outward, 
but looking inward, because of legal implications and practical 
implications, there is no CIA that looks inside the United 
States. That's these gentlemen here. They are the people that 
need, from the bottom up, to synthesize that information.
    I can also tell you that here in New Jersey we could not 
agree more that all information and all intelligence, like 
politics and emergencies are local, and it starts with the 
municipalities reporting in to a central location. I don't 
think the Federal Government can help us with that. I think 
that's something we need to do ourselves, and we are prepared 
to invest money, state money, to make that happen.
    Us feeding, at the local level, the information upward, the 
Federal Government then can synthesize that information, put it 
in context for us, and get it back to us, but it has to start 
from the bottom up, and I think that's what we are doing here 
in New Jersey, and I think that's what everyone should be 
doing.
    Mr. Dent. Well, I have no further questions, I just want to 
thank you, gentlemen. I find that these interactions are very 
helpful to me. I learned a great deal from the local and state 
officials about--we are in Washington, and we are looking at 
this issues sometimes at 60,000 feet in the air, you are where 
the rubber meets the road, so your observations are really very 
helpful to me.
    So, thank you.
    Yield back.
    Mr. Reichert. So, I thank the witnesses for your testimony, 
thank you for being with us here this morning. We know you have 
busy schedules and a job to do, but it is important that you 
share your incites with us and your testimony. The citizens 
here in your region are fortunate to have you as leaders in 
their community, and I think that after hearing what you had to 
say today they can feel much safer.
    Again, thank you all so much for everything that you do for 
your community, your neighborhoods, and our country. This panel 
is excused and we'll call up the second panel. Thank you all 
very much.
    Mr. Pascrell. Mr. Chairman?
    Mr. Reichert. Mr. Pascrell.
    Mr. Pascrell. Yes, I would ask as many of you to stay for 
the second panel, which is going to be a humdinger, we have 
FEMA, we have the DHS here, so please, if you can, hang on.
    Thank you to the panelists, we really appreciate it.
    Mr. Reichert. Thank you, let's give them a nice round of 
applause.
    Mr. Reichert. We'll begin the second round of hearing the 
second panel. Mr. Walter Gramm, the Executive Director, New 
Jersey Business Force, Business Executives for National 
Security, Mr. Steve Kempf, Regional Director, Federal Emergency 
Management Agency, Mr. Timothy Beres, Director, Preparedness 
Programs Division, Office of Grants and Training, Department of 
Homeland Security.
    The Chair recognizes Mr. Gramm to testify.

   STATEMENT OF WALTER GRAMM, EXECUTIVE DIRECTOR, NEW JERSEY 
            BUSINESS FORCE, BUSINESS EXECUTIVES FOR 
                       NATIONAL SECURITY

    Mr. Gramm. Well, good afternoon, Chairman Reichert, Ranking 
Member Pascrell, and Congressman Dent. It's an honor to be here 
today to help address the question at hand, are we ready?
    I'm here on behalf of the Business Executives for National 
Security, or BENS, a D.C.-based national, non-partisan, non-
profit organization, comprised of more than 500 business 
executives committed to volunteering their time and talents to 
improve the Nation's security. BENS has a 24-year track record 
of applying business skills and best practices to achieve 
measurable improvements in government practice.
    I am the Executive Director here in New Jersey for the BENS 
Business Force initiative. The National Business Force 
initiative, I'm proud to say, had its genesis here in New 
Jersey and has been providing a template for the formation of 
regional public/private partnerships across the Nation. It was 
launched in 2003 with the recognition that government alone 
cannot adequately prepare for nor respond to catastrophic 
events. In short, it takes a village, a local village, as you 
pointed out, Mr. Pascrell, and business is a principal citizen 
of that village.
    When facing the threat of any catastrophic event, 
businesses have two kinds of responsibilities. The first is 
saving themselves. Self-preservation or business continuity and 
planning to make business operations resilient enough to 
survive any event.
    While business continuity is important to a company, its 
customers, employees, suppliers, and ultimately our economy, a 
second critical responsibility is helping our communities. In 
that spirit, as well as out of humanitarian concern, companies 
responded admirably during 9/11, Katrina and other catastrophic 
events. But, business/government collaboration in the midst of 
crisis has often been chaotic, with little or no advanced 
planning, training or exercising.
    And, that is the Business Force mission, to mobilize and 
organize the resources and expertise of the business community 
in advance. Business and government need such a partnership to 
better prepare for threats and an all-hazards approach prior to 
a terrorist attack, flu pandemic, or natural disaster. The 
White House's Katrina: Lessons Learned report encouraged 
expansion of the BENS Business Force model, and the U.S. 
Department of Homeland Security has provided partial funding.
    Specific Business Force projects that mobilize private 
sector support fall into four major categories. The first is 
organized collaboration. Businesses link to state and local 
government emergency operation centers and information fusion 
centers to improve communications before, during and after a 
crisis.
    Second is surge capacity and supply chain management. 
Businesses pledge their resources, like warehouse or office 
space, trucks, equipment, skilled personnel, on a pro bono 
basis through the Business Response Network.
    The third is mass vaccination and treatment. Business Force 
companies contribute volunteers and skilled management to 
assist state and local governments in the design, testing and 
execution of plans to dispense vaccines and medical supplies, 
in the event of a pandemic or biological attack.
    And, the fourth area is leadership and strategic support. 
Business Force partnerships offer best business practices and 
civic leadership from some of the Nation's top executives to 
help government improve homeland security capabilities.
    And, crisis information in New Jersey, citizens--here in 
New Jersey the Business Force is taking an all-hazards 
approach, especially as it relates to communications and public 
awareness. For example, with the New Jersey Public Television 
and Radio, NJN, one of our key member organizations, we have 
been working to provide accurate, actionable, authoritative and 
available New Jersey-specific preparedness and crisis 
information to New Jersey citizens and business who live within 
media markets predominantly centered on New York City and 
Philadelphia.
    This gets to the transparency issue outlined by Director 
Ca/as.
    Our member organizations have been enhancing their own 
security, business continuity, and communications capabilities 
through the use of advancing technology.
    As a New Jersey citizen, I am proud of the role our state 
has played in helping other states in times of crisis. The 
recent deployment to the Gulf Coast Region in the wake of 
Katrina and Rita, coordinated and managed by the New Jersey 
State Police, confirmed that the public sector and individuals 
responsible for our protection and recovery from future 
catastrophic events are among the top professionals in the 
Nation. BENS is proud of the progress that we have made in 
building the public/private partnership here in the state, and 
look forward to expanding that partnership under Governor 
Corzine's and Director Ca/as' leadership.
    Some opportunities ahead that will help in continuing to 
forge efficient and effective partnerships are the opening of 
the new Regional Integrated Operations Center that Director Ca/
as talked about, and it's a chance to better integrate the 
private sector into preparedness and response efforts. Business 
and government leaders must learn to communicate effectively 
and make sound decisions during an event.
    Second is the continued New Jersey State endorsement and 
subsequent integration of the Business Response Network into 
OEM's EPINET system.
    The third is the need for pandemic flu readiness planning, 
which has given us a new urgency to the partnering already 
underway between private companies and New Jersey's State 
health officials.
    Business does not have all the answers, but it is clear, 
especially during times of crisis, that our Nation needs the 
vast resources, expertise and capabilities of the private 
sector. We cannot overstate the value of building trust and 
creating a sturdy bridge between business and government in 
advance. BENS will continue to work with our government 
partners to strengthen prevention, preparedness and response 
capabilities.
    Thank you for the opportunity to address the committee.
    [The prepared statement of Mr. Gramm follows:]

                   Prepared Statement of Walter Gramm

    Good afternoon. It is an honor to be here today to help address the 
question: "Is Northern New Jersey Ready?"
    I am here on behalf of Business Executives for National Security, 
or BENS, a national nonpartisan, nonprofit organization, comprised of 
more than 500 business executives committed to volunteering their time 
and talents to improve the nation's security. BENS has a 24-year track 
record of applying business skills and best practices to achieve 
measurable, demonstrable improvements in government practices.
    I am the Executive Director here in New Jersey for the BENS 
Business Force initiative. The National Business Force initiative, I am 
proud to say, had its genesis here in New Jersey and has been providing 
a template for the formation of regional public/private partnerships 
across the nation. It was launched in 2003 with the recognition that 
government alone cannot adequately prepare for nor respond to 
catastrophic events like terror attacks or pandemic flu. In short, "it 
takes a village"  and business is a principal citizen of that village.
    When facing the threat of any catastrophic event, businesses have 
two kinds of responsibilities. The first is saving themselves. Self-
preservation, or business continuity planning, includes developing 
emergency response capabilities to protect employee health and safety, 
as well as taking steps to make business operations resilient enough to 
survive a catastrophic event. Business preparedness helps protect 
critical infrastructure, ensure availability of urgently needed goods 
and services, and strengthen economic stability.
    While business continuity is important to a company, its customers, 
employees, suppliers, and ultimately our economy, a second critical 
responsibility is helping their communities. Business understands that 
it needs to help maintain "continuity of community" in order to ensure 
its own business continuity. In that spirit, as well as out of 
humanitarian concern, companies responded admirably during 9/11, 
Katrina and other catastrophic events. But business-government 
collaboration in the midst of crisis has often been chaotic, with 
little or no advanced planning, training or exercising.
    That is the BENS Business Force mission  to mobilize and organize 
the resources and expertise of the business community in advance, to 
improve security capability in states or regions, where it is most 
needed. Business and government need such a partnership to better 
prepare for threats in an all-hazards approach prior to a terrorist 
attack, flu pandemic or natural disaster. The White House's Katrina: 
Lessons Learned report encouraged expansion of the BENS Business Force 
model, and the U.S. Department of Homeland Security (DHS) has provided 
partial funding.
    Specific Business Force projects that mobilize private sector 
support fall into 4 major categories:
    1. Organized Collaboration: Businesses link to state and local 
government emergency operations centers and information "fusion 
centers" to improve communication before, during and after a crisis. 
This collaboration helps identify threats and minimize bureaucratic 
roadblocks to get the right resources to the right places faster;
    2. Surge Capacity/Supply Chain Management: Businesses pledge their 
resources (warehouse or office space, trucks, equipment, skilled 
personnel, etc.) on a pro bono basis through the Business Response 
Network (BRN) , a web-based registry that can be quickly tapped by 
emergency management officials;
    3. Mass Vaccination/Treatment: Business Force companies contribute 
volunteers and skilled management to assist state and local governments 
in the design, testing, and execution of plans to dispense vaccines and 
medical supplies in the event of a pandemic or biological attack;
    4. Leadership and Strategic Support: Business Force partnerships 
offer best business practices and civic leadership from some of the 
nation's top executives to help government improve homeland security 
capabilities.
    Here in New Jersey the Business Force is taking a "High Point to 
Cape May" all-hazards readiness approach, especially as it relates to 
communications and public awareness. For example, with NJN Public 
Television & Radio, one of our key member organizations, we have been 
working to provide accurate, actionable, authoritative, and available 
New Jersey-specific preparedness and crisis information for New Jersey 
citizens who live within media markets predominantly centered on New 
York City and Philadelphia.
    Our member organizations have been enhancing their own security, 
business continuity, and communications capabilities through the use of 
advancing technology. Leading edge screening, security, medical, and 
information sharing systems such as NJN's DigitalSecure datacasting 
system, NC4's National Incident Monitoring Center, and several other 
innovative programs are being rapidly deployed.As a New Jersey citizen, 
I am proud of the role our state has played in helping other states in 
times of crisis. The recent deployment to the Gulf Coast Region in the 
wake of Katrina and Rita (coordinated and managed by the New Jersey 
State Police) confirmed that the public sector individuals responsible 
for our protection and recovery from future catastrophic events are 
among the top professionals in the nation. BENS is proud of the 
progress that we have made in building the public-private partnership 
here in the State and look forward expanding that partnership under 
Governor Corzine's and Director Richard Canas' leadership.
    Some opportunities ahead that will help in continuing to forge 
efficient and effective partnerships:
    1. The opening of the new Regional Integrated Operations Center 
(RIOC) at the New Jersey State Police campus in West Trenton later this 
summer provides a chance to better integrate the private sector into 
preparedness and response efforts. Business and government leaders must 
learn to communicate effectively and make sound decisions during an 
event. To this end, business representatives should actively 
participate in the state emergency operation centers and information 
fusion centers.
    2. Continued New Jersey State endorsement and subsequent 
integration of the Business Response Network into OEM's EPINET system 
will allow for the broad expansion of the asset base available for 
emergency response.
    3. The need for pandemic flu readiness planning has given a new 
urgency to the partnering already underway between private companies 
and New Jersey State health officials. We are looking forward to 
expanding the role of business and business volunteers in the design, 
testing, and execution of response plans, including the dispensing of 
medications.
    Business does not have all the answers, but it is clear, especially 
during times of crisis, that our nation needs the vast resources, 
expertise and capabilities of the private sector. We cannot overstate 
the value of building trust and creating a study bridge between 
business and government in advance. BENS will continue to work with our 
government partners to strengthen prevention, preparedness and response 
capabilities.
    Thank you for the opportunity to address the Committee and for your 
courtesies. I look forward to your questions.

    Mr. Reichert. Thank you, Mr. Gramm. The Chair recognizes 
Mr. Kempf.

         STATEMENT OF STEPHEN KEMPF, REGIONAL DIRECTOR,
 REGION II, FEDERAL EMERGENCY MANAGEMENT AGENCY DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Kempf. Good afternoon, Chairman Reichert, Ranking 
Member Pascrell, and, of course, the senescent Congressman 
Dent.
    My name is Stephen Kempf, Jr., and I am the Regional 
Director, Region II, Department of Homeland Security's Federal 
Emergency Management Agency.
    I'm also a New Jersey native, first responder, disabled 
fireman, former Fire Commissioner. I've been ten years in the 
radiological emergency preparedness community, and this is my 
second tour as Regional Director. So, I've been around a little 
while.
    On behalf of FEMA and the Department of Homeland Security, 
I would like to thank you for the opportunity to testify before 
you today on FEMA's efforts with regard to disaster readiness 
and planning in the State of New Jersey.
    We who live in New Jersey and within FEMA Region II have 
certainly witnessed their share of disasters over the years. 
These range from hurricanes to major snowstorms, nor'easters, 
and, of course, the World Trade Center disaster in 2001, as 
well as the emergency for the World Trade Center bombing in 
1993.
    Emergency preparedness in New Jersey, as in all parts of 
the country, is the responsibility of State and local emergency 
managers. As we enter this hurricane season--already having had 
one tropical storm, Alberto--I cannot stress this enough, and 
we commend the efforts of the State and locals to prepare for 
future events. In addition, planning for a disaster is the 
responsibility of an even more basic unit, the family and the 
individual. Citizens must be prepared to be self-sufficient for 
up to 72 hours after a disaster. This gives local, State and 
Federal authorities the time to complete life-saving missions.
    I would like to point out that New Jersey does lead the 
Nation in the number of active Community Emergency Response 
Teams, or CERTs, allowing for greater citizen support in a 
major event.
    I know you are aware that FEMA derives its primary 
authority from the Robert T. Stafford Disaster Relief and 
Emergency Assistance Act. Simply put, this Act provides the 
authority for mitigating the effects of natural and manmade 
disasters through awarding grants to states, assisting in 
readiness planning with our Federal, State, local and 
federally-recognized tribal and private sector partners, in 
coordinating the Federal response, providing recovery 
assistance, and establishing the role of the Federal 
Coordinating Officer.
    Through FEMA's mitigation grant programs, Pre-Disaster 
Mitigation, Flood Mitigation Assistance, and the post-disaster 
Hazard Mitigation Grant Program, FEMA provides funds and 
technical assistance to develop State and Local Mitigation 
Plans, which assess the communities' risks and vulnerabilities 
and proposes mitigation solutions to reduce those risks. 
Mitigation planning should be included as part of a community's 
overall planning effort. By having an LMP, communities have a 
better understanding of their risks and an awareness of the 
infrastructure and properties vulnerable to those risks, and 
can apply for mitigation funding when it is made available 
under the Mitigation Grant Programs mentioned before. 
Mitigation Grant Programs are funded on a 75 percent Federal, 
25 percent State or local cost-share basis.
    The role of FEMA, the Department of Homeland Security, and 
other Federal, State, local, tribal, and private sector 
partners is further outlined in the National Response Plan, the 
Nation's all-discipline, all-hazard plan for establishing a 
single, comprehensive framework for the management of domestic 
incidents.
    The New Jersey Office of Emergency Management has also 
organized their operations consistent with the National 
Response Plan and NIMS, and will be in a position to respond to 
future events with full integration into the overall Federal 
response.
    FEMA's Region II, which includes New York, New Jersey, 
Puerto Rico and U.S. Virgin Islands, continuously supports all 
hazard emergency response planning, and is acutely aware of the 
importance of catastrophic emergency response planning. As you 
well know, the recent history in this region, especially the 
tragic events of September 11th, have inspired in all the 
state, local and tribal governments an enhanced sense of 
importance on the issue of regional disaster planning.
    This regional approach was validated at the recent 
Catastrophic Continuity of Operations/Continuity of Government, 
otherwise known as COOP/COG, Planning Conference held the first 
week of April, 2006. During this conference, representatives 
from FEMA's Regions I and II worked with the states represented 
by these regions to develop common planning priorities.
    There are numerous examples of coordination between the 
states in Region II and FEMA including the following: FEMA has 
been working directly with New Jersey State and New York City 
planners on the significant issue of commodity distribution, 
evacuation, and sheltering after a major event.
    Together, FEMA and the State of New Jersey conducted a 
state-wide hurricane awareness session on June 2, which was 
attended by over 150 local and state responders to discuss 
critical issues responding to a significant hurricane surge 
typical of the 1938 hurricane that impacted the Northeast.
    New Jersey officials recently participated in a two-day 
Department of Homeland Security and FEMA catastrophic hurricane 
exercise with all the Northeast States, because of the 
interrelationship of all, testing the NRP and the important 
relationships with the Principal Federal Official responsible 
for hurricanes this season throughout the Northeast.
    The State of New Jersey is completing construction of one 
of the Nation's first fusion Emergency Operations Center, 
totaling almost 78,000 square feet that will incorporate all 
State operations, as well as providing space that will allow 
Department of Homeland Security, FBI and FEMA officials to be 
fully integrated into any response.
    Sir, I have a rather lengthy testimony, but given the five 
minutes I will provide you with my written statement and 
certainly will address any questions that you might have.
    Thank you very much. Thank you for your time.
    [The prepared statement of Mr. Kempf follows:]

                  Prepared Statement of Stephen Kempf

    Good morning Chairman Reichert, Ranking Member Pascrell and members 
of the Committee. My name is Stephen Kempf and I am the Regional 
Director, Region II, of the Department of Homeland Security's Federal 
Emergency Management Agency (FEMA). On behalf of FEMA and the 
Department of Homeland Security (DHS), I would like to thank you for 
the opportunity to testify before you today on FEMA's efforts with 
regards to disaster readiness and planning in the State of New Jersey. 
This discussion will include FEMA's general authority to mitigate, 
prepare for, respond to and recover from disasters of all types, FEMA's 
role and activities in emergency planning in New Jersey, and FEMA's 
specific activities associated with preparing for the 2006 Hurricane 
Season.
    Those living in New Jersey and within FEMA Region II have certainly 
witnessed their share of disasters over the years. These range from 
Hurricane Floyd in 1999 to major snowstorms and nor'easters and, of 
course, the World Trade Center disaster in 2001, as well as the 
emergency for the World Trade Center bombing in 1993.
    Emergency preparedness in New Jersey, as in all parts of the 
country, is the responsibility of State and local emergency managers. 
As we enter this hurricane season - already having one tropical storm, 
Alberto - I can not stress this enough, and we commend the efforts of 
the State and locals to prepare for future events. In addition, 
planning for a disaster is the responsibility of an even more basic 
unit - the family and the individual. Citizens must be prepared to be 
self-sufficient for up to 72 hours after a disaster. This gives local, 
State and Federal authorities the time to complete life saving 
missions. I would like to point out that New Jersey does lead the 
nation in the number of active Community Emergency Response Teams 
(CERT), allowing for greater citizen support in a major event.

FEMA's Role and Statutory Authority to Support State and Local 
Governments
    FEMA derives its primary authority from the Robert T. Stafford 
Disaster Relief and Emergency Assistance Act, 42 U.S.C. 5121 et seq. 
Simply put, this act provides the authority for mitigating the effects 
of natural and manmade disasters, through awarding grants to States; 
assisting in preparedness and readiness planning with our Federal, 
State, local, Federally-recognized tribal and private sector partners; 
coordinating the Federal response; providing recovery assistance; and 
establishing the role of the Federal Coordinating Officer.
    Through FEMA's mitigation grant programs--Pre-Disaster Mitigation 
(PDM), Flood Mitigation Assistance (FMA) and the post-disaster Hazard 
Mitigation Grant Program (HMGP)--FEMA provides funds and technical 
assistance to develop State and Local Mitigation Plans (LMP), which 
assess the communities' risks and vulnerabilities and propose 
mitigation solutions to reduce those risks. Mitigation planning should 
be included as part of a community's overall planning effort. By having 
an LMP, communities have a better understanding of their risks and an 
awareness of the infrastructure and properties vulnerable to those 
risks and can apply for mitigation funding when it is made available 
under the mitigation grant programs mentioned. Mitigation grant 
programs are funded on a 75 percent Federal and 25 percent State or 
local cost-share basis.
    The role of FEMA, the Department of Homeland Security, and other 
Federal, State, local, tribal and private sector partners is further 
outlined in the National Response Plan (NRP), the nation's all-
discipline, all-hazard plan for establishing a single, comprehensive 
framework for the management of domestic incidents.
    FEMA and DHS' new Preparedness Directorate coordinate initiatives 
that include planning and technical assistance for State, local and 
tribal governments, and provide support to National Incident Management 
System (NIMS) implementation and the National Emergency Management 
Baseline Capability Assessment Program. Further, FEMA operates the 
Emergency Management Institute (EMI), a national training center for 
emergency planning, exercise design, and incident command operations 
for Federal, State, local, tribal and private sector individuals. The 
New Jersey Office of Emergency Management has also organized their 
operations consistent with the National Response Plan and NIMS and will 
be in a position to respond to future events with full integration into 
the overall federal response.

FEMA Region II Support and Coordination Activities
    FEMA's Region II, which includes New York, New Jersey, Puerto Rico, 
and the U.S. Virgin Islands, continually supports all-hazards emergency 
response planning, and is acutely aware of the importance of 
catastrophic emergency response planning. As you well know, the recent 
history in this region, especially the tragic events of September 11th, 
have inspired in all of the State, local and tribal governments an 
enhanced sense of importance on the issue of regional disaster 
planning. This has made my job, and the job of my staff, much easier, 
as we have found receptive and eager partners in our planning efforts.
    This regional approach was validated at the recent Catastrophic 
Continuity of Operations/Continuity of Government (COOP/COG) Planning 
Conference held during the first week of April 2006. During this 
conference, representatives from FEMA's Regions I and II worked with 
the States represented by these Regions to develop common planning 
priorities.
    There are numerous examples of coordination between the States in 
Region II and FEMA including the following:

    FEMA has been working directly with New Jersey State and New York 
City planners on the significant issue of commodity distribution, 
evacuation, and sheltering after a major event;
    Together, FEMA and the State of New Jersey conducted a State-wide 
hurricane awareness session on June 2, which was attended by over 150 
local and State responders to discuss critical issues responding to a 
significant hurricane surge typical of the 1938 hurricane that impacted 
the Northeast. Future sessions are planned for Long Island and 
Westchester County, New York;
    New Jersey officials recently participated in a two day DHS and 
FEMA catastrophic hurricane exercise with all the Northeast States 
testing the NRP and the important relationships with the Principal 
Federal Official (PFO) responsible for hurricanes this season 
throughout the Northeast; and,
    The State of New Jersey is completing construction of one of the 
nation's first fusion Emergency Operations Center, totaling almost 
78,000 square feet that will incorporate all State operations, as well 
as providing space that will allow DHS, FBI and FEMA officials to be 
fully integrated in any response.

Protocols and Coordination in a Disaster: Chain of Command
    As I have described earlier in this testimony, under the Stafford 
Act, FEMA is authorized to supplement the efforts and available 
resources of State and local governments and disaster relief 
organizations for an emergency or major disaster declared by the 
President. We lean forward and move Federal teams, commodities, and 
equipment to Federal facilities. However, we cannot actually provide 
assistance under the law, unless the Governor asks, certifying that the 
event is beyond the State's capability and the President declares an 
Emergency or Major Disaster. Nevertheless, commodities and equipment 
that may be necessary and made available are pre-positioned in a number 
of logistics centers and mobile support locations, strategically placed 
across the nation.
    The Stafford Act acknowledges the constitutional authority of the 
Governor to respond to incidents affecting New Jersey through the New 
Jersey Office of Emergency Management (NJOEM), which incorporates the 
States' mutual aid system and principles of the ICS and provides the 
structure through which State and local government agencies respond. 
NJOEM coordinates the overall management of an emergency to include 
requests for support and resources from other State agencies, other 
States under the Emergency Management Assistance Compact (EMAC), and 
supplemental assistance from the Federal government. In addition, DHS 
has recognized New Jersey as one of the first States to involve the 
private sector in their operational planning.
    In advance of a hurricane, Region II follows existing protocols to 
activate the Regional Response Coordination Center (RRCC) including 
Emergency Support Function (ESF) personnel as appropriate, and to 
deploy the State Liaison Officer (SLO) and Emergency Response Team 
Advanced (ERT-A) personnel to begin pre-landfall coordination with 
State emergency management officials to address life saving and life 
sustaining response requirements. The ERT-A will work with their State 
counterparts to assess State resource needs, and commodities may be 
pre-staged at the Federal staging area in anticipation of need. The 
RRCC works with the affected State to identify critical facilities such 
as potable water, power and sewage; and needs for assistance or 
commodities including evacuation, housing, and food. This process is 
facilitated by the ESF leads, for example, the Department of 
Transportation provides transportation and evacuation support, the U.S. 
Army Corps of Engineers provides assistance with debris and other 
public works and the Department of Health and Human Services provides 
health and medical support.
    Several additional FEMA teams may be activated, including the 
Agency's National Response Coordination Center Team, the Hurricane 
Liaison Team (HLT), and the five Mobile Emergency Response Support 
(MERS) detachments. The FEMA/National Weather Service (NWS) HLT, 
established in 1996, coordinates communications between the NWS's 
National Hurricane Center, FEMA, and the emergency management community 
primarily at the State level. The HLT is activated a few days in 
advance of any potential U.S. hurricane landfall. The HLT provides an 
excellent way to communicate with the large number of emergency 
managers typically impacted by a potential hurricane. This is a 
critical effort to ensure emergency managers and first responders know 
what to expect from the hurricane.
    FEMA headquarters may deploy an Emergency Response Team National 
(ERT-N) to supplement Regional staff, and may alert National Disaster 
Medical System (NDMS) and Urban Search and Rescue (US&R) teams to 
prepare for deployment. Once an event has occurred, the Rapid Needs 
Assessment (RNA) team may deploy to determine critical needs or issues 
in the State. When a facility is available and prepared for staff, a 
Joint Field Office (JFO) would be opened to support the disaster 
response and recovery efforts. FEMA's Stafford Act recovery programs 
would be carried out throughout this process.
    As part of this planning effort and consistent with the States 
plans and priorities, FEMA will continue to work with other Federal 
agencies, the State and other stakeholders to:

    Improve Federal support to the emergency management response 
capability of local, State and Federal agencies to rapidly respond to 
emergencies, major disasters, and Incidents of National Significance.
    Ensure unified command and unity of effort through rigorous 
adherence to the principles of NIMS. In preparation for this upcoming 
hurricane season, but with the additional benefit of being ready for 
any disaster, Secretary Chertoff has pre-designated a PFO and a Federal 
Coordinating Official (FCO) for Regions I and II. The PFO for this area 
will be Rear Admiral David P. Pekoske, First District Commander, U.S. 
Coast Guard; the Deputy PFO will be Joseph Picciano, FEMA Region II 
Deputy Director; and the FCO will be Phil Parr, a seasoned FEMA Federal 
Coordinating Officer. Meetings have been held with key New Jersey 
State, local and emergency management officials, which have included 
either the designated PFO or DPFO, where discussions that have 
incorporated explanations of the PFO role.
    Streamline national level emergency contracting procedures and plan 
to ensure an adequate inventory of response and recovery assets are 
strategically pre-positioned throughout the country.

2006 Hurricane Season Improvements
    The historic 2005 hurricane season challenged FEMA as never before. 
The agency supported the largest evacuation in U.S. history, 
coordinated the delivery of approximately four times the amount of 
water and two times the amount of ice delivered for all four Florida 
hurricanes combined in 2004, coordinated the rescue of 36,000 
individuals with U.S. Coast Guard and FEMA Urban Search & Rescue teams 
and provided temporary housing assistance to an unprecedented 825,000 
families displaced from their homes. While catastrophic Hurricane 
Katrina resulted in a record response from all levels of government, 
the lessons learned from FEMA's response will prove invaluable for the 
improvement of future major disaster responses.
    FEMA approaches the 2006 hurricane season with a renewed sense of 
commitment and urgency to improve our service to the Nation by building 
on a solid foundation of experienced professionals and the lessons 
learned from last year's unprecedented disaster response activities. 
Techniques and technologies that were employed in the response to 
Hurricanes Rita and Wilma in the 2005 season to improve response 
coordination have been institutionalized. And, as a result of intensive 
collaborative analysis of response and recovery programs post-Katrina, 
FEMA is implementing multiple new measures designed to strengthen 
essential functions so the agency can more effectively respond to all 
disasters. These improvements are designed to supplement the experience 
and skills of FEMA employees with 21st century tools and technology--
maximizing the agency's performance regardless of disaster size, cause 
or complexity.
    Following are some examples of some of the national initiatives for 
improvement that will be in place for the 2006 hurricane season.
    Improving Federal coordination in the immediate response, by 
increasing the level of coordination with the Department of Defense. A 
Defense Coordinating Officer (DCO) and support staff are anticipated to 
be stationed at FEMA Region II to smooth and expedite the provision of 
Department of Defense support. The identified DCO has met with Regional 
staff and briefed the States at the recent Catastrophic COOP/COG 
Planning Conference. In addition, the Region maintains close 
coordination with the Regional Emergency Preparedness Liaison Officer 
(EPLO) staff. FEMA headquarters has been working with DOD to shorten 
the time from request to delivery of assets by pre-identifying military 
capabilities and developing the scope of work and cost information for 
support in communications, ground transportation, air transportation, 
medical support and search and rescue.
    Improving situational awareness and communications 
interoperability, through development of the DHS Secretary's 
Situational Awareness Teams, and augmentation of survivable and 
interoperable communications capabilities. Region II has actively 
coordinated with other States to include New Jersey on issues of 
communications interoperability. Emphasis has been placed on types of 
equipment, frequency management and cross-coordination of support 
capability in any operational situation.
    As an element of FEMA's increased ESF-1 and ESF-13 capability, TSA 
is in the final stages of publishing a Natural Disaster Plan that forms 
teams of TSA personnel from across the country to respond to natural 
disasters with 24 hours notice. These teams consist of scaleable 
numbers field personnel as well as command and control elements to 
support the on scene commander. The teams also include a Federal Air 
Marshal element that is also scaleable to assist local and federal law 
enforcement personnel in accomplishing their tasks. These teams will 
provide continuation of transportation commerce where and when needed, 
including the replacement of transportation security specific personnel 
who may be personally affected by a natural disaster, once again to 
permit the continuation of commerce or evacuation, as required.
    Hiring, training and developing the two FEMA Incident Response 
Support Teams (FIRSTs) to support the Federal response to Incidents of 
National Significance. These are small, rapidly deployable teams that 
can provide support directly to State, local and tribal governments on 
scene, providing technical advice, situational awareness, 
communications and assistance in requesting and employing lifesaving 
Federal assets. They are intended to deploy within two hours of 
notification, to be on-scene within 12 hours, and are a forward 
component of the ERT-A.
    Improving logistics and commodity preparations by replenishing and 
restocking essential disaster commodities at logistics and staging 
areas and working in advance with vendors. FEMA headquarters will have 
enhanced logistics support from the Defense Logistics Agency to ensure 
available stockpiles of emergency meals, water, tarps, plastic 
sheeting, medical equipment and essential pharmaceuticals.
    FEMA is actively improving the visibility of disaster assets and 
commodities from requisition to arrival at disaster locations, thus 
enhancing logistics management. FEMA headquarters is improving delivery 
of disaster commodities within States and implementing a commodity 
tracking initiative, the Total Asset Visibility Project: Phase I, which 
will provide FEMA with an improved ability to manage its inventory of 
certain commodities and to track the location of trailers carrying 
commodities. Phase I will address commodities leaving the logistics 
warehouses in Atlanta, GA and Fort Worth, TX, regardless of where the 
disaster occurs.
    As part of the national evacuation planning initiative, we 
recognize that given the small size of Region II, an evacuation in 
catastrophic disaster conditions would require close coordination among 
all States, both for transportation routing and sheltering of evacuees. 
The experience gained by FEMA Region II and the State of New Jersey in 
housing and caring for Katrina evacuees has provided valuable insight. 
In addition to assisting with local sheltering needs, FEMA Region II 
deployed a large number of staff to the Gulf States in support of 
Hurricane Katrina and learned many valuable lessons through that 
experience. We would also like to commend New Jersey for the 
significant effort it has made over the past year to expand hurricane 
evacuation planning activities.
    Strengthening our emergency medical response. Disaster Medical 
Assistance Teams (DMATs) have served with distinction in responses to 
many incidents, including natural disasters throughout the U.S.; the 
World Trade Center attacks in New York on 9/11/2001; the 2002 Winter 
Olympic Games in Utah; and a wide range of National Special Security 
Events.
    Strengthening our search and rescue response. FEMA headquarters 
continues to work with numerous Federal agencies including FEMA's Urban 
Search and Rescue elements, the U.S. Coast Guard and the Department of 
the Interior (Park Service) to agree on roles, responsibilities, and 
available resources for structural collapse rescue, water rescue, and 
wilderness rescue. Although New Jersey's Urban Search and Rescue team 
is not presently part of the FEMA national system, they are recognized 
by states in the northeast region and elsewhere in the nation and have 
served admirably including supporting NYC during 9/11.
    Developing the 2006 Concept of Operations for Hurricane season: 
FEMA headquarters has been working with the primary and supporting ESF 
agencies in identifying the tasks that should be done starting 96 or 
more hours out, then 72 hours, 48 hours, etc. to ensure we have all 
Federal supporting and operational functions synchronized in the 
response. FEMA plans to activate more assets (teams and commodities) 
sooner and place them closer to anticipated landfall, while keeping 
them safe, though we recognize that with the variables of hurricanes 
this can be problematic.
    Improving customer service and expediting help to disaster victims 
by improving shelter population management and doubling registration 
capacity to 200,000 persons per day. We will also deploy mobile 
registration intake centers (MRICs), recognizing that many disaster 
victims may be stranded or in congregate shelters with no 
communications and unable to register for assistance. We are also 
enacting measures to cut down on the incidences of waste, fraud and 
abuse, taking such steps as improving our identity verification process 
during registration, suspending the use of debit cards, providing more 
information on the intended purpose of disaster assistance, and 
developing safeguards on the use of new technologies to both improve 
our stewardship responsibilities of Federal taxpayer dollars while 
simultaneously reducing the delays associated with disaster victim 
identity verification.
    Expanding our home inspections capacity and improving the speed and 
suitability of temporary housing, and enhancing the debris removal 
process.
    FEMA plans to increase our disaster workforce and is expanding 
training of employees for disaster readiness.

Looking Ahead
    Mr. Chairman and Members of the Committee, while the Department, 
Region II, and the State of New Jersey are making great strides to 
strengthen essential functions to improve our 2006 readiness, I would 
be remiss if I did not mention some of the major areas that will 
require long term commitment in conjunction with the State. These areas 
include:
    evacuation planning as identified through the Nationwide Plan 
Review Report dated June 16, 2006, prepared by DHS and the Department 
of Transportation (this planning also encompasses the impacts on 
surrounding States)
    further communications enhancement;
    addressing the emergency needs and requirements for the elderly, 
the disabled, and other special needs populations;
    disaster commodity inventory tracking systems and distribution 
centers to result in more effective delivery or relief supplies to 
disaster victims; and
    refining the coordination of all levels of government.
    Finally, as Federal, State, local and tribal governments become 
better prepared in anticipation of this hurricane season, it is vitally 
important that individuals and families also be prepared. New Jersey 
has not been directly hit by a significant hurricane event in many 
years, potentially resulting in a lack of individual preparedness. I 
recognize that States generally hold public awareness campaigns at the 
start of hurricane season, and encourage that they continue that 
practice and encourage strong public awareness campaigns. As I 
mentioned before, New Jersey does lead the nation in Community 
Emergency Response Teams (CERT) allowing for greater citizen support in 
a major event. FEMA Region II public affairs staff will coordinate with 
and support the States to ensure a unified message.
    Of course, preparation for improved emergency management must be a 
consistent process. FEMA will continue to make other significant 
enhancements beyond this hurricane season to help further strengthen 
the Nation's preparedness and ability to respond and recover from 
disasters, whatever their cause. We look forward to continuing our 
partnerships with the State of New Jersey, tribal and local 
governments, as well as the private sector, community organizations and 
individuals in identifying their roles and responsibilities. Together, 
we will strengthen our ability to prepare for, protect against, respond 
to, and recover from catastrophic events.
    Mr. Chairman and Members of the Committee, thank you again for the 
opportunity to appear before you today. I would be pleased to answer 
any questions you may have.

    Mr. Reichert. The Chair recognizes Mr. Beres.

  STATEMENT OF TIMOTHY BERES, DIRECTOR, PREPAREDNESS PROGRAMS 
DIVISION, OFFICE OF GRANTS AND TRAINING, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Beres. Thank you, Chairman Reichert, Congressman 
Pascrell, and Congressman Dent. Thank you for this opportunity 
to discuss homeland security and the support the Department of 
Homeland Security has provided to New Jersey.
    My name is Tim Beres, and I'm the Director of Preparedness 
Programs in the Department's Office of Grants and Training. 
Since 1998, I have worked to develop national homeland security 
programs to prepare our Nation's public safety community to 
deal effectively with terrorism and weapons of mass 
destruction.
    During my tenure, I've had the opportunity to establish the 
first National Training Center for Civilian Terrorism 
Preparedness, and I've established an advanced educational 
program which has educated current and future leaders in the 
field of homeland security.
    In addition, I've led the development and evolution of the 
Homeland Security Grant Programs, including the Urban Area 
Security Initiative to allocate finite Federal Resources that 
support strategic direction of the Department and the national 
preparedness goal.
    The Department's mission is to make our entire Nation safer 
and more secure, by managing risk in a way that lessens the 
vulnerability of the entire country. As Secretary Chertoff has 
pointed out, we will never have the resources to protect every 
single person, and every single place, at every single moment 
in America. Our responsibility at DHS is to determine how to 
most effectively use limited Federal resources to maximize 
security throughout the country.
    In allocating 2006 Homeland Security Grant funds, we used 
an approach that expands our understanding of what constitutes 
risk, while taking into account congressional guidance 
encouraging our Nation to move away from reaction to strategic 
preparation.
    As you know, Mr. Chairman, the combined region of New 
Jersey--of Jersey City and Newark, was one of the highest 
ranked areas for relative risk in the fiscal year 06 analysis. 
More than 2,000 assets were considered in the analysis for this 
urban area, and the combination of the two cities in the 
program had a significant impact in its overall ranking of 
relative risk.
    Since 9/11, the Department of Homeland Security has 
provided more than $320 million to the State of New Jersey. 
While the State of New Jersey saw an 8 percent decrease in 
funding from last year, as you know, Mr. Chairman, funds 
appropriated for the Homeland Security Grant Program were cut 
by more than 25 percent. The State of New Jersey's total award 
of nearly $52 million represents approximately a 30 percent 
greater slice of the national pie.
    The Jersey City/Newark area has received on average 
approximately 3 percent of all funding through the Urban Area 
Security Initiative since the program's inception, and has 
received more than $97 million overall since 2003. This year's 
Urban Area Security Initiative allocation of $34.3 million was 
nearly 5 percent of the total funds available, an almost 80 
percent increase from last year.
    As we look at how to strategically invest Federal dollars, 
we are seeking investments that promise to increase the overall 
capability of a region through funding such things as 
technology and specialized training.
    The State of New Jersey and its partners have worked hard 
in this regard. As a result, the Homeland Security Grant 
Program funding from prior years has had a significant impact 
on the successful implementation of several important Homeland 
Security initiatives across New Jersey. These include a 
regionalized explosive detection response capability, creation 
of a large-scale emergency medical response capability, and 
working towards implementing a state-wide interoperable 
communication system.
    Mr. Chairman, it is these kinds of large-scale, long-term 
capability-based improvements that the Homeland Security Grants 
Program were designed to support. The process used to allocate 
fiscal year 06 Homeland Security Grants reflects this emphasis, 
as well as our improved understanding of nationwide risk and 
ability to evaluate risk, mitigation strategies against the 
National Preparedness priorities.
    In conclusion, Mr. Chairman, the Department believes that 
the 2006 Homeland Security Grants Program resulted in a dynamic 
and objective funding process that will sustain improvements in 
our homeland security over the long term. However, we will 
continue to solicit feedback on improving our grant processes 
from this Subcommittee, from other members of Congress, and 
especially from those on the front lines who work every day to 
protect all of us.
    With billions of dollars at stake every year, we take this 
issue very seriously, and believe that healthy debate will only 
make our process better, more transparent, and result in the 
improvements needed to secure our Nation from terrorism and 
other threats.
    I can assure you that myself, and my staff, and everyone 
that works with us, all think of ourselves as citizens and not 
necessarily Federal bureaucrats, and realize that it's the 
first responders that are on the front line, our law 
enforcement, public works, public health, firefighters, 
everyone, that we are looking forward to, to protect our 
families in times of crisis, and we are doing our best to make 
sure that we are providing them with the resources that we have 
to make ourselves and all their families safer, too.
    Thank you, Mr. Chairman, for the opportunity to be here 
today and address you. Thanks.
    [The prepared statement of Mr. Beres follows:]

                  Prepared Statement of Timothy Beres

    Chairman Reichert, Congressman Pascrell and Members of the 
Committee, thank you for the opportunity to appear before you today to 
discuss the Homeland Security Grant Program, and specifically, the 
support that the Department has provided to the State of New Jersey.
    Let me start by stating that while the focus of today's hearing, 
"Is Northern New Jersey Ready to Respond to a Disaster", is an all-
hazards discussion, the focus of my statement is on financial, 
training, and exercise support to prepare New Jersey to prevent, 
detect, respond and recover from acts of terrorism. This information 
will supplement the hurricane preparedness testimony delivered from my 
colleagues at FEMA to provide an overall view of the state of 
preparedness in New Jersey.
    There has been much debate and discussion during the past several 
weeks. Some of the information presented in public has been accurate 
and some has not. The debate itself is positive - it is welcome and 
necessary for us to be engaged in discussion over homeland security 
priorities and funding.
    One thing however is very clear: the discussion on funding should 
not be an issue of placing the safety and security of any one person, 
community or State in America ahead of another. This is very much about 
making our entire nation safer and more secure by managing risk in a 
way that lessens the vulnerability of the entire country.
    The safety and security of each and every American lies at the core 
of the mission of the Department of Homeland Security (DHS), and it is 
a mission that the men and women of the Department take seriously.
    However, a safer and more secure America is not an exclusive 
mission of the Department of Homeland Security. America's safety and 
security is a shared national responsibility. It is a mission that is 
shared among local, State and Federal agencies, the public and private 
sectors and the American people. In the context of terrorism, it 
requires an unprecedented mix of efforts - border and immigration 
controls, security in our ports, and airports and protection of 
critical assets and infrastructure, including transportation, 
communication, financial and energy. Homeland security is about 
managing risk for the entire nation based on a comprehensive national 
approach; it is about applying limited resources most effectively based 
on our understanding of America's overall risk.
    Let me be very clear, there is a critical distinction to be made: 
Threat is not synonymous with risk, nor is risk analysis synonymous 
with risk management, as I will discuss later.
    There are many tools employed every day and in every way to keep 
our nation safer and more secure from the threat of terrorism and a 
host of other hazards and threats that comprise our national risk 
continuum. Today, I would like to focus on the Homeland Security Grant 
Program (HSGP).
    The HSGP is the Department's primary means of homeland security 
assistance to the states and local communities, and it includes the 
State Homeland Security Program (SHSP), the Law Enforcement Terrorism 
Prevention Program (LETPP), and the Urban Areas Security Initiative 
(UASI). As such, HSGP is one of the Department's most important and 
visible mechanisms to manage national strategic risk.
    Today's testimony will focus on the method DHS utilized to evaluate 
the risk of terrorism to States, territories, and Urban Areas; the peer 
review process we employed to determine the expected effectiveness of 
proposed solutions, and ultimately, the risk management techniques we 
used to determine allocations for Fiscal Year (FY) 2006. I will go into 
great detail regarding how the Department strived to employ an 
objective, comprehensive, and fair process for allocating FY2006 HSGP 
grants to improve nationwide terrorism preparedness.
    The debate about "who got how much" has overshadowed the more 
important discussion about the best way to use limited financial 
resources to increase America's security. We used an approach this year 
that expands our understanding of what constitutes risk while taking 
into account Congressional guidance encouraging our nation to move away 
from "reaction" to "strategic preparation."
    As Secretary Chertoff said in recent remarks pertaining to this 
program,
    "We cannot protect every single person at every moment in every 
place against every threat. What we have to do is manage the risk, and 
that means we have to evaluate consequence, vulnerability, and threat 
in order to determine what is the most cost-effective way of maximizing 
security."
    The Department's grants programs have traditionally provided 
financial assistance to all 50 States, the District of Columbia, the 
Commonwealth of Puerto Rico, and the U.S. Territories. By the end of 
Fiscal Year (FY) 2006, states and localities will have received over 
$18 billion in assistance and direct support from the Department of 
Homeland Security since September 11, 2001. This does not account for 
the additional billions made available from the Departments of Health 
and Human Services and Justice.
    The Department is making significant, important, and vital changes 
to HSGP, both with the analytic capabilities that support the program 
and the management techniques we use to determine allocations. And, as 
we have all seen from the reaction to our FY 2006 allocations, 
implementation of risk management will not necessarily be an easy or a 
popular shift. However, it is an important shift and one that we take 
seriously. We have and will continue to solicit feedback on our 
processes and are willing to listen to criticism and suggestions for 
improving our processes. With billions of dollars being allocated each 
year, this is a serious business - and we believe that healthy debate 
about risk management principles will only make these processes better 
and more transparent. Despite recent successes globally in the war on 
terror, America's security will be a marathon and not a sprint. We need 
an objective funding process that will sustain improvements for the 
long- term.
    Today, I hope to articulate the following policy considerations:
    1. The objectives of the Homeland Security Grants are to enhance 
capabilities to prevent, deter, respond to, and recover from acts of 
terrorism, to be allocated based on risks, threats, vulnerabilities, 
and unmet target capabilities. It is long-standing Administration 
policy that the limited pool of Federal grant resources should be 
primarily used to improve long-term capabilities that provide a maximum 
return on investment, instead of to finance day-to-day occurring local 
personnel operational costs.
    2. The new DHS risk analysis process incorporates the tremendous 
increase in relevant individual risk of urban communities, this risk in 
relation to other communities, and the distribution of risk across our 
entire nation.
    3. In applying risk management to the grant process, DHS has 
emphasized the principle of risk reduction, including the peer-review 
assessment. This includes the likelihood that Federal resources can 
help reduce long-term risk and address short falls in capability. The 
new allocation formula, based on risk and effectiveness, strives to 
provide an objective process that is flexible to account for improved 
information on a national scale.

FY 2006--A Transition Year
    In past years, DHS' risk analysis was largely driven by both 
population size and density. But over time we have been able to develop 
enhanced techniques to analyze risk. In FY 2006, the risk analysis 
considered three primary components: Threat, Vulnerability, and 
Consequence. The Threat component represents an adversary's intent to 
attack a specific target and its potential capability to execute the 
attack; the Vulnerability component embodies the susceptibility to an 
adversary's attack and the likelihood that it will achieve an impact; 
and the Consequence component measures the possible impact from such an 
attack.
    With the enhanced methodology and broader set of data inputs, we 
were able to capture a truer estimation of relative risk for all urban 
areas. The footprint used to analyze the risk to both assets as well as 
geographic areas and populations was adjusted this year. This 
adjustment more accurately reflects the regional context in which these 
jurisdictions operate and the critical infrastructure that provides 
higher potential targets and requires protecting. There is better data 
about not just New York City, but about the entire region, including 
the Jersey City/Newark area and across a broader range of sectors. As a 
result of these improvements, many areas' risk scores changed 
significantly, a reflection of an enhanced analytical approach to 
gauging the risk urban areas face relative to one another.
    It is important to understand the downstream impact of these 
changes in relative risk. For example, New York City does not suddenly 
have less risk in an absolute sense; in fact, it continues to be among 
the highest risk Urban Areas. However, the relative values for 
virtually all other candidates increased this year due to our better 
understanding of their risk and its analysis. The relative differences 
among the higher risk candidates is what changed from last year to this 
year. Indeed, Urban Areas such as the Jersey City/Newark area, Los 
Angeles, and Chicago saw their share of national risk relative to New 
York City increase considerably, in some cases doubling or tripling 
compared to previous analysis. These changes in relative risk were key 
drivers in the changes in funding allocations.
    FY 2006 also marks the first HSGP grant cycle in which the Interim 
National Preparedness Goal is in place to identify National Priorities 
and help focus local and state expenditures. This common planning 
framework, and the tools that support it, allow us individually as 
communities and states and collectively as a Nation to better 
understand how prepared we are, how prepared we need to be, and how we 
prioritize efforts to close the gap. The absence of this type of 
consistent preparedness target is at the forefront of many of our 
national shortcomings over the past 25 years. The Interim National 
Preparedness Goal demands that we focus attention on "raising the bar" 
of preparedness across the country to establish minimum capabilities 
and be prepared for the risks we face. This, along with measurement of 
risk, gives us an important management consideration for our grant 
programs.
    Accordingly, the Department of Homeland Security has been 
aggressive in:
    1. improving the risk analysis tools used to determine a National 
risk profile, so that we can target funding at higher risk locations, 
and
    2. clarifying the risk management objectives for the HSGP, within 
the context of the Interim National Preparedness Goal
    This year we have also implemented another significant change in 
how funds under the HSGP are allocated. In previous years, States and 
Urban Areas knew their funding allocations prior to submitting grant 
applications. Based on substantial input from the national preparedness 
community Congress, and our focus on risk management, Department has 
moved towards a risk-based approach that incorporates a competitive 
analysis element to allocating funds for HSGP. This is a critical step 
in achieving a Homeland Security Grants Program that emphasizes risk-
informed grant making, increased accountability and is focused on 
maximizing the return on investment of federal grant funds.

Risk-Based Analysis and Management
    I would like to explain how we analyzed risk for determining the 
2006 grant funding.The Department of Homeland Security has many risk 
management resources at its disposal people, technology, and funding 
are just a few. The HSGP is among the most valuable of these tools 
because it allows us to partner with our States, Territories and Urban 
Areas and First Responder communities, and support national 
preparedness goals.
    The Administration, Congress, State and Local stakeholders, first 
responder organizations, and industry groups have called for more risk 
management approaches to inform homeland security grant allocations. 
There has been a clear recognition that our national approach requires 
that we apply federal funding resources in a way that maximizes 
resources to benefit all Americans.
    Key to this year's process is a much better understanding of our 
national risk.In our effort to improve our methods for risk management 
of the terrorist threat we considered several key factors.
    1. Ultimately, it is the States, Urban Areas and Territories that 
own the risk in their respective areas, and they must make investments 
locally that will build needed capabilities and address identified 
risk. DHS's risk management job is to provide them guidance, and within 
available resources, financial assistance to make these investments. In 
this program, we have been directed to invest in initiatives that 
promote unity of effort at the community, regional, state, and national 
levels. They must continue to provide tangible benefits beyond the flow 
of Federal dollars.
    2.When managing risks, we must rely on analysis of risk to inform 
our management process, but be cognizant of the inherent uncertainty of 
this analysis. Consider this definition of risk analysis from the 
Society for Risk Analysis:
    "Risk analysis uses observations about what we know, to make 
predictions about what we don't know."
    I think this sums up risk analysis in the context of homeland 
security quite nicely. We have carefully considered the factors that 
experts believe lead to risk, and we have confidence in our approach. 
But we are realists and we understand that risk in the terrorist 
context is new, constantly changing, and lacks the measuring history of 
data flow found in other hazards.
    Terrorist threat cannot be predicted with the reliability of 
hurricanes or floods, or mechanical failures. No matter how much we 
invest in scientists and algorithms, we cannot measure terrorism risk 
in an absolute sense. Therefore, we emphasize building capabilities to 
manage risk nationwide based on the best estimations possible. Our 
profile is built on an analysis of relative risk based on what is 
known.
    3.Risk Analysis DOES NOT EQUAL Risk Management. In fact, the 
Society for Risk Analysis definition makes this point better than I 
can:
    Risk analysis seeks to inform, not to dictate, the complex and 
difficult choices among possible measures to mitigate risks.
    As this indicates, the risk analysis is only one input to the risk 
management process that should be considered for Homeland Security. In 
any risk context, risk management typically involves considerations 
beyond the quantifiable analysis. Risk management includes many other 
considerations such as management objectives, fiscal constraints, one's 
ability to actually impact the risks one faces, and the strategy that 
best serves our overall national interests. The primary risk management 
objective of the HSGP is to: raise the bar of preparedness across the 
at-risk states, territories and Urban Areas as part of an 
interdependent national effort by directing funds to areas of greatest 
risk and those implementing the most effective risk management 
solutions.
    These two objectives announced by Congress require the Department 
to balance the desire to focus resources on areas at relatively greater 
risk, with the desire topromote use of federal resources for strong 
solutions that "raise the bar" of national preparedness and address 
national risk.
    Thus, common sense dictates that managing risk through the HSGP 
program involves much more than just distributing dollars in proportion 
to the relative risk data that we generate each year. Rather, it is 
viewed as a means for reducing risk and promoting national objectives.
    As previously noted, DHS defines risk by three principal variables: 
Threat, or the likelihood of a type of attack that might be attempted, 
vulnerability, or the likelihood that an attacker would succeed with a 
particular attack type, and consequence, or the potential impact of a 
particular attack. The risk model used as input to the HSGP process 
includes both asset-based and geographically-based terrorist risk 
calculations. DHS combines these complementary risk calculations to 
produce an estimate of the relative risk of terrorism faced by a given 
area.
    Our enemies still wish to inflict both physical and economic harm 
on the United States. Recognition of this threat is underscored by both 
the Administration's and Congress's desire to assess and categorize our 
national assets - things such as key transportation hubs, financial 
processing sites, nuclear power and chemical plants, priority 
communication and energy systems. These are sites that, if attacked, 
would have an extraordinary impact not only on the surrounding 
population and community, but in some cases, the nation as a whole. In 
the first year of this grant program we had categorized approximately 
200 sites, in 2004 some 1700, in 2005 approximately 11,300. This year, 
we further expanded the number of sites to include many considered to 
be `high risk' by the surrounding state and local jurisdiction, which 
brought the total number of sites in the analysis to over 260,000 
sites.
    This asset-based approach uses strategic threat estimates from the 
Intelligence Community of an adversary's intent and capability to 
attack different types of assets (such as chemical plants, stadiums, 
and commercial airports) using different attack methods. DHS analyzes 
the vulnerability of each asset type relative to each attack method to 
determine the forms of attack most likely to be successful. 
Additionally, DHS estimates the consequences that a successful attack 
would have on each asset type, including human health, economic, 
strategic mission, and psychological impacts. This analysis yields a 
relative risk estimate for each asset type, which DHS applies to a 
given demographic area, based on the number of each asset type present 
within that area.
    The geographic-based approach allows DHS to consider general 
characteristics of a geographic area mostly independent of the assets 
that exist within that area. First, DHS evaluates threats, law 
enforcement activity, and suspicious incidents reported during the 
evaluation period.
    Next, DHS considers vulnerability factors for each geographic area, 
such as the area's proximity to international border.
    Lastly, DHS estimates the potential consequences of an attack on 
that area, including human health, economy, strategic mission, and 
psychological impacts.
    DHS's ability to analyze risks to the Nation is improving each year 
in both breadth and sophistication. Despite the known limitations of 
the Department's analysis, the results confirm two fairly intuitive 
points:
    1. The majority of the risk is contained in a handful of locations 
throughout the country. This is the argument so strenuously made by 
that handful of localities. However,
    2. There are risks to other urban areas that we have begun to 
assess more accurately. These areas have previously received relatively 
small amounts of grant funding. The HSGP risk analysis considered much 
more than the final number of cities that made the Urban Area list. 
Those that made the list did so because they had a level of risk. In 
this case, the urban areas under UASI contain 85% of our national urban 
area risk. Attachment A reflects both the funding and risk curve and 
you can see these correspond.
    Given these two results, and drawing on intuition and common sense, 
it seems reasonable that while we must fortify higher-risk locations, 
we cannot ignore the risks in the other locations.

Effectiveness
    For FY 2006, States and Urban Areas submitted grant applications, 
called Investment Justifications, to formally request FY 2006 HSGP 
funding in support of their strategies and related program planning 
documents. These applications were reviewed through an intensive peer 
review process. The FY 2006, competitive grant process to allocate 
funds to States and Urban Areas was based on two factors:
    1. The relative risk to assets and populations within the eligible 
applicant's geographic area, and
    2. The anticipated effectiveness of the individual investments 
comprising the Investment Justification, in aligning to the Interim 
National Preparedness Goal and addressing the identified homeland 
security needs of each applicant.
    Finding the right balance between these two factors is the central 
risk management challenge. It requires us to conduct extensive analysis 
of relative need and risk, thoroughly review applications, and 
rigorously analyze the potential effectiveness of the grant funds. The 
Department of Homeland Security conducted an unprecedented amount of 
analysis to arrive at decisions about grants funding. We took into 
consideration alignment with other national policy initiatives and 
statute objectives, as well as ensuring consistency of approach both 
over time and between the HSGP programs.
    The major considerations of project requests were the following:

    Relevance--Connection to the National Priorities, Target 
Capabilities List, State/Urban Area Homeland Security Strategy goals 
and objectives, and the Enhancement lan.Regionalization--Coordination 
of preparedness activities across jurisdictional boundaries by 
spreading costs, pooling resources, sharing risk, and increasing the 
value of their preparedness investments.
    Impact--The effect that the investment will have on addressing 
threats, vulnerabilities, and/or consequences of catastrophic events.
    Sustainability--The ability to sustain a target capability once the 
benefits of an investment are achieved through identification of 
funding sources that can be used beyond the current grant period.
    Implementation Approach--The appropriate resources and tools are 
(or will be) in place to manage the Investment, address priorities, and 
deliver results.

    States and Urban areas each submitted up to 15 investments for 
consideration. These investments were submitted with an Investment 
Justification, which allowed them to describe specific funding and 
implementation approaches that would help achieve initiatives outlined 
in the Statewide Program and Capability Enhancement Plan. This plan 
developed in the Fall of 2005 establishes how Urban Areas and States 
will work to develop their individual capabilities as part of a broader 
national effort. The Investment Justification allowed the States and 
Urban Areas to request funding for allocation to their near-term 
priorities, consistent with the National Priorities articulated in the 
Interim National Preparedness Goal.
    The effectiveness review is a method to evaluate a state or Urban 
Area proposal in relation to others submitted and against the grant 
program criteria provided. It is not, I repeat it is not an evaluation 
of how well an initiative is or is not performing in a particular State 
or Urban Area. This element, added with Congressional direction and 
support, is designed to encourage uses of funds in accordance with pre-
announced program guidelines and that will both enhance community, 
state and national preparedness beyond a grant period.

Peer Review Process
    Our risk management objective was to determine the "anticipated 
effectiveness" of the investments contained in the Investment 
Justification. Thus, DHS convened a panel of a cross section of 
representatives from States, Territories, and Urban Areas, and from a 
variety of Homeland Security and Emergency Management disciplines.
    States and Urban Areas sent high ranking officials to be reviewers; 
for example, three States sent their most senior Homeland Security 
Directors. From the Fire and Rescue community, an Assistant Deputy Fire 
Chief, Battalion Chief, Fire Operations Chief, and a Fire Emergency 
Management and Communications Chief participated, from Law Enforcement, 
an Assistant Chief of Police, Captain of a Sheriff's Department, 
Commander of a Special Response Team, and a Lieutenant from a Homeland 
Security and Tactical Operations unit. All used their knowledge and 
experience to evaluate the anticipated effectiveness of proposed 
solutions from their peers. These examples are only a subset of the 
vast experience of peer reviewers who participated in the HSGP process.
    Peer review panels were made up of reviewers from varied 
backgrounds and experience - and to avoid potential conflicts of 
interest - diversity was emphasized. Each panel included a balance of 
representation from each region (Eastern, Central, and Western). The 
peer review panels reviewed and scored each individual Investment 
included in the Investment Justification as well as the Investment 
Justification submission in its entirety. The peer review panels also 
reviewed the Enhancement Plan to ensure alignment among Initiatives 
from the Enhancement Plan with proposed Investments.
    The peer review process provides a significant incentive for States 
and Urban Areas to spend the limited pool of Federal resources on 
projects that will provide a meaningful return on investment and a 
lasting impact on reducing the risks of terrorism.

HSGP Guidance to All Communities
    Prior to the release of the HSGP guidance, DHS provided extensive 
assistance to States and local governments in their development of 
updated Homeland Security Strategies and the Capability Enhancement 
Plans, which link investment planning to the National Priorities 
outlined in the Interim National Preparedness Goal. This guidance for 
the development of Enhancement Plans was a critical precursor to the 
development of successful Investment Justifications that meet the 
criteria assessed by the Peer Review Panel during the HSGP application 
process.
    Between the time that the FY2006 Homeland Security Grant Program 
(HSGP) guidance was released on December 2, 2005, and the application 
due date of March 2, 2006, the DHS Grants and Training (G&T) 
Preparedness Officer for both the State of New Jersey (NJ) and the 
Newark/Jersey City Urban Area was in frequent contact with the State 
and Urban Area. The officer was available to answer technical questions 
regarding the process. Due to the competitive nature of the application 
process, G&T staff members were not able to discuss or offer advice 
regarding specific program or budget proposals that may unfairly 
benefit one application over another.
    G&T provided technical assistance to assist with the Program and 
Capability Review (PCR), which was the core planning process each State 
was required to conduct prior to submitting proposals. The PCR 
justified how any FY 2006 funds would be invested. Approximately 110 
representatives from the State of New Jersey, including representatives 
from the Jersey City/Newark urban area, participated in the PCR 
technical assistance session on January 10, 2006. The session stressed 
the need to emphasize broad regionalization and include additional 
stakeholders, such as other local regions and the private sector, in 
the program planning process.

Allocation
    To support the management objectives of HSGP, we investigated 
several allocation techniques, and ultimately selected a two-by-two 
matrix approach that allows us to evaluate Investment Justifications 
based on the Relative Risk to the Applicant vs. the anticipated 
Effectiveness of the Investment Justification submitted by that 
applicant.
    This two-by-two matrix approach provided us with the following 
benefits:

    It allowed us to assemble a picture of the challenge recognizing 
that the two factors we value: Relative Risk and anticipated 
Effectiveness are distinct and not inherently correlated
    It gave us a relatively simple lens through which to view the 
decision space as policy makers, while still allowing a known model to 
drive final allocations.

    To generate final HSGP allocations, we assembled two of these 
matrices: one for States and Territories subject to SHSP and LETPP 
dollars, and one for Urban Areas subject to UASI dollars. The matrices 
worked the same. Each applicant was plotted in the matrix by using 
their relative risk score and their Investment Justification 
Effectiveness rating.Once plotted in the matrix, each applicant fell 
into one of four quadrants:

    Quadrant 1: higher relative risk/higher anticipated effectiveness
    Quadrant 2: higher relative risk/lower anticipated effectiveness
    Quadrant 3: lower relative risk/higher anticipated effectiveness
    Quadrant 4: lower relative risk/lower anticipated effectiveness

    Once allocations were determined for each of the four quadrants, 
final dollar allocations were determined. For that, Relative Risk was 
weighted two-thirds and anticipated effectiveness was weighted one-
third to emphasize the risk-based nature of the programs while 
recognizing strong program solutions. Using our analytic model, we 
generated the final allocation results you have seen, and which are 
illustrated by the chart below.



                        Urban Area                           Allocation

AZ--Phoenix Area*.........................................    $3,920,000
CA--Anaheim/Santa Ana Area................................    11,980,000
CA--Bay Area..............................................    28,320,000
CA--Los Angeles/Long Beach Area...........................    80,610,000
CA--Sacramento Area*......................................     7,390,000
CA--San Diego Area*.......................................     7,990,000
CO--Denver Area...........................................     4,380,000
DC--National Capital Region...............................    46,470,000
FL--Ft. Lauderdale Area...................................     9,980,000
FL--Jacksonville Area.....................................     9,270,000
FL--Miami Area............................................    15,980,000
FL--Orlando Area..........................................     9,440,000
FL--Tampa Area*...........................................     8,800,000
GA--Atlanta Area..........................................    18,660,000
HI--Honolulu Area.........................................     4,760,000
IL--Chicago Area..........................................    52,260,000
IN--Indianapolis Area.....................................     4,370,000
KY--Louisville Area*......................................     8,520,000
LA--Baton Rouge Area*.....................................     3,740,000
LA--New Orleans Area......................................     4,690,000
MA--Boston Area...........................................     8,210,000
MD--Baltimore.............................................    $9,670,000
MI--Detroit...............................................    18,630,000
MN--Twin Cities Area......................................     4,310,000
MO--Kansas City Area......................................     9,240,000
MO--St. Louis Area........................................     9,200,000
NC--Charlotte Area........................................     8,970,000
NE--Omaha Area*...........................................     8,330,000
NJ--Jersey City/Newark Area...............................    34,330,000
NV--Las Vegas Area*.......................................     7,750,000
NY--Buffalo Area*.........................................     3,710,000
NY--New York City.........................................   124,450,000
OH--Cincinnati Area.......................................     4,660,000
OH--Cleveland Area........................................     4,730,000
OH--Columbus Area.........................................     4,320,000
OH--Toledo Area*..........................................     3,850,000
OK--Oklahoma City Area*...................................     4,102,000
OR--Portland Area.........................................     9,360,000
PA--Philadelphia Area.....................................    19,520,000
PA--Pittsburgh Area.......................................     4,870,000
TN--Memphis Area..........................................     4,200,000
TX--Dallas/Fort Worth/Arlington Area......................    13,830,000
TX--Houston Area..........................................    16,670,000
TX--San Antonio Area......................................     1,460,000
WA--Seattle Area..........................................     9,150,000
WI--Milwaukee Area........................................     8,570,000

<SUP>*Sustainment</SUP> <SUP>Urban</SUP> <SUP>Area</SUP>...................................



    The allocation process used this year to distribute the nearly $711 
million in UASI funding, $125 million less than FY 2005 (overall HSGP 
funding was reduced $343 million below the President's request), to 46 
metropolitan areas was structured to take into account both the risk 
and effectiveness of the proposed investments.

DHS Support for New Jersey and the Jersey City/Newark Areas
    The combined region of Jersey City/Newark was one of the highest-
ranked urban areas for relative risk in the FY06 analysis. More than 
2,000 assets were considered in the analysis for the urban area, and 
the combination of the two cities had a significant impact in the 
overall ranking of relative risk. The Jersey City/Newark area has 
received, on average, approximately 3 percent of all funding through 
the Urban Areas Security Initiative since the program's inception, and 
has received more than $97 million overall from the UASI program since 
2003. This year's UASI allocation was nearly 5 percent of the total 
funds available, which amounts to nearly an 80 percent increase from 
last year.
    As we look at investing Federal dollars, we are seeking investments 
that promise to increase the overall capability of a region through 
funding such things as equipment and specialized training. Jersey City/
Newark and its partners have worked hard in this area. HSGP funding 
from prior years has had a significant impact on the successful 
implementation of several homeland security initiatives across New 
Jersey. For example:
    New Jersey has developed Regionalized Explosive Detection/Response 
Capability--Over the past three fiscal years funding has been used to 
support a dual-pronged initiative entitled the Explosive Detection & 
Render Safe Task Force to address rapid responses to suspected 
improvised explosive devices (IED's). 10 bomb squads and 26 canine 
units have become more fully integrated and interoperable through 
similar equipment, common training and a written plan providing a bomb 
response capability across the state.
    Implemented USAR Task Force--Beginning in 2004, funds were used to 
implement an Urban Search and Rescue (USAR) strike team to provide the 
six-county UASI region with a rapid, first response to disasters that 
involve structural collapses. Nine fire departments participate on the 
strike team and have been outfitted with a modern rescue vehicle, heavy 
rescue tools, and confined space communication equipment. This effort 
complements Northern New Jersey's long standing commitment to USAR.
    Created Large Scale EMS Response Capability--The UASI, Central, and 
Shore regions have created EMS Task Forces to provide disaster related 
emergency medical services during large mobilization efforts. 11 
medical trailers filled with medical supplies have been funded in these 
regions and been assigned to specific EMS teams.
    Additionally, the funds provided as part of the FY06 HSGP award 
will have a tremendous impact on several initiatives currently in 
progress, including:

    Achieving a Statewide Interoperability Communications System--The 
state is working to provide both tactical and wide area communications 
for federal, state, and local public safety agencies. Interoperability 
equipment and infrastructure such as 20 interoperability channels, 520 
cache radios, and mobile communications equipment are being procured to 
allow for statewide interoperability.
    Achieve "E Team" Capability in Each County--"E Team" is a 
collaborative crisis management system that provides management support 
in areas of emergency preparedness, response, and recovery. The system 
is being implemented in all 21 counties.
    Achieve Statewide Intelligence Management Systems (SIMS) in Each 
County--SIMS is used to accumulate, manage and analyze intelligence 
data accumulated from numerous internal and external sources. SIMS is 
being implemented in all 21 counties.

    Needless to say, building these capabilities within the State of 
New Jersey and the Jersey City/Newark Urban Area increases prevention, 
deterrence, response and recovery capabilities not only of the State 
and Urban Area, but also of the region, particularly the Greater New 
York metropolitan area. Law enforcement and emergency management 
activities in New Jersey and the Jersey City/Newark Urban Area help 
mitigate the risk to the entire region, and increased capabilities in 
New Jersey help relieve the burden on New York and neighboring areas.
    In addition to providing grant funds, training, and exercise 
support, the Office of Grants and Training (G&T) has made great strides 
in building relationships with key homeland security officials in New 
Jersey and cooperative efforts with FEMA Region II.
    G&T's Washington, D.C.--based Preparedness Officer for New Jersey 
has maintained his role for the past 2.5 years, allowing for a 
successful relationship to become established. He is intimately 
familiar with the operations of homeland security in New Jersey and its 
two Urban Areas.
    G&T has a full-time Preparedness Officer located onsite at FEMA's 
Region II office in New York City. While the focus of this individual 
is specifically G&T's Emergency Management Performance and Metropolitan 
Medical Response System grants, she maintains an active professional 
relationship with her federal FEMA counterparts in the New York/New 
Jersey area.
    Representatives from FEMA Region II have attended various meetings 
in partnership with G&T. Most recently, FEMA representatives attended 
and participated in each of the regional conferences we hosted at the 
outset of the FY06 HSGP process.
    Finally, New Jersey was one of the sites of the TOPOFF 3 Exercise 
in the Spring of 2005. G&T staff worked with NJ officials, state 
agencies and other federal partners, and of course FEMA, for many 
months in preparation for this significant event.

Conclusion
    Mr. Chairman it is essential to recognize the distinction between 
risk and threat. Although threat is a large component of risk, risk 
does not equal threat, but considers it along with vulnerability and 
consequences. Likewise, risk analysis informs, but does not equal risk 
management. We now have a much better understanding of nationwide risk 
then we have in the past, along with the ability to evaluate risk 
mitigation strategies. As a result we now have a dynamic process for 
managing risk that reflects the Nation's priorities. We have come a 
long way in our understanding of risk and as we learn we will continue 
to improve this still evolving process.
    Managing risk is a national responsibility. We would not be acting 
responsibly if we simply looked at each individual state or Urban Area 
as its own entity in making risk-based decisions. America's security 
requires a comprehensive approach and the federal government has an 
obligation to protect the entire nation. We must take steps necessary 
to ensure that all of our high risk areas increase their levels of 
capability. The grants allocation process is not about making Omaha 
safe at the expense of the New York area, rather, it is about building 
capabilities across the nation, such as those in New Jersey and the 
Jersey City/Newark Urban Area, that make all of America--including New 
York and Washington, D.C. safer and more secure.
    Moreover, providing grants to the states and Urban Areas is just 
one aspect of managing risk. Whether it's through border security, 
ensuring the security of nuclear plants, food storage facilities, 
financial centers across the country or cracking down on illegal 
immigrants, what we do in one area of the country will make a 
difference everywhere else.
    Terrorists are working hard to exploit gaps in our efforts and the 
American people deserve no less than our very best effort to thwart 
those who would do us harm. I am confident in our ability to work 
together to do just that.
    I would like to thank the committee for its time today and I 
appreciate this opportunity to bring further transparency on this 
process.

    Mr. Reichert. I thank all the witnesses for their 
testimony, and I'll begin with just a couple of questions, and 
then we'll move on to the other members of the committee.
    I don't think anyone will disagree that the money from the 
grant process that's been allocated across the country since 
September 11th has not been useful to most agencies across this 
Nation.
    As the Sheriff from Seattle, I know I was the recipient of 
many Federal grants from the Homeland Security Grant System, 
and also from the COP system, and I know it benefitted the 
Sheriff's Office tremendously, and also the entire region.
    But, we know there had to be some evolution to this process 
and a learning curve, and I sometimes compare our response to 
homeland security to a very tragic occurrence in our Nation, 
and that's Columbine. And, police departments and sheriffs' 
offices across the country responded to Columbine incidents in 
a much different way pre that tragic day, and it caused people 
in law enforcement across this Nation to take a whole different 
look as to how we were to solve a problem that presented itself 
in that way.
    No longer could you stand around on the outside of the 
building and negotiate with the person, because that person now 
today is in there, not negotiating, but killing people, and 
hurting people. So, you had to come up with a new plan, and you 
had to come up with new equipment, and new training, and that's 
what the need is for today, a new plan, new equipment, new 
training, for protecting our entire country, and it's a mind 
set, it's a cultural change that has to take place.
    And, I know just recently we had the Secretary, and we also 
had Mr. Forsman testify in front of our committees and 
Subcommittee, and I remember one comment that was made, I think 
it was by Mr. Forsman, is that the grants process is an 
evolving process. And, we heard testimony from Commissioner 
Kelly and Mayor Bloomberg, and their testimony referred to the 
need for training, equipment and communication equipment, but 
they also continually referred to, and we heard today, 
personnel.
    As you see the grants and training process evolving, do you 
see it evolving into possibly discussing the need for 
supporting personnel across the country in some of the non-
traditional roles that Homeland Security now has caused us to, 
those in First Responder uniforms across the Nation take on?
    Mr. Beres. I think you make some very good points, Mr. 
Chairman. I think this whole issue, I mentioned in my testimony 
that I'd been working on it since 1998, has evolved 
considerably, and I think one of the best ways of looking at it 
is sort of to criminal justice, and the criminal justice system 
in the early `70's, before we were looking at it as a system of 
systems, you had law enforcement separated from COP, separated 
from--separated from courts and separated from corrections. I 
think now at Homeland Security, we are finally starting to see 
how it is a system of systems in taking a look at what are the 
needs of those individual systems as they operate within the 
overall broader context.
    I think one of our challenges at the Federal side is 
determining what are some of those things when we are working 
with state and locals in a national security problem, a 
national security issue, what are those things that are the 
Federal responsibility to fund and/or do, and what are those 
things that are state and local responsibilities to fund and/or 
do in a national security context.
    Mr. Reichert. I want to follow up with just a quick 
question.
    Mr. Beres. Sure.
    Mr. Reichert. Because I don't want to go over my time, and 
I know where you are headed with this.
    But, the COPS grants have been slowly, you know, quickly, 
more quickly, being cut, cut, cut, and when we get to the point 
where we know we have equipment, we know that training is in 
place, and you are supporting us with that, there's a point 
where most chiefs, and sheriffs, and fire chiefs across the 
country, and emergency managers will say, we need help hiring 
people. Do you see the grant process going in that direction at 
all, or at least the discussion beginning?
    Mr. Beres. I think there will be a discussion that begins 
on that, and I think it also starts with you all in your 
committee also.
    Mr. Reichert. Thank you.
    Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Gramm, thanks for joining us today. I've read your 
testimony very carefully, and then listening to it, there have 
been many instances when private industry has been hesitant to 
detail their emergency preparedness plans because of propriety 
concerns.
    How do your members balance your private sector concerns in 
emergency preparedness? You had major problems in New Jersey 
getting the chemical industry moving, when they didn't see the 
Federal Government doing anything.
    Mr. Gramm. Well, I think there's a couple different levels 
that you deal with. There's certainly a body of information 
that business has that's proprietary, that's very sensitive, 
that the marketplace, for example, the stock markets are very 
sensitive to some of those, some of that information and some 
of those plans.
    But, where our companies have been working together closely 
is to try to sort out what's generic security from what is 
business-specific and business-sensitive information.
    We started off with non-disclosure agreements, for example, 
but over time it's become apparent that they are not so 
important as they were initially thought to be, because, again, 
there was a generic--there's a generic body of information that 
the companies, as they get together and develop that, are 
willing to share it with business in general.
    There is a little bit of a tension between the public 
sector and the private sector, because of a regulation culture. 
You mentioned the chemical industry, for example, and I think 
where business begins, and part of what the first panel, one of 
the things that the first panel mentioned, I think it was 
Sheriff Fontoura, was that he was looking for standards to be 
legislated.
    Where business began with this sense of cooperation after 
2001 was with a spirit of collaboration, and I think we want to 
be careful not to undermine that by mandating--by making 
legislation so isolated, perhaps, or isolated from business 
participation in developing, helping to develop that 
legislation. It gets to a non--that we continue in a 
collaborative environment.
    Mr. Pascrell. Well, we on a Federal level are seeing we 
have to move when we don't see private industry moving, you 
know, we are talking about a dangerous strip here in the State 
of New Jersey, and the chemical industry, you know, were 
reviewing and examining to see what they've done to step up to 
the plate, they're looking at it to see what the Federal 
Government is going to do, and there is that tension there that 
exists, and yet, I think the overall objective should be that 
we ought to get off our duffs and get something done.
    Mr. Kempf, you know, your agency has come under a lot of 
attack. The last guy got bounced, found out didn't have any 
experience whatsoever. I have a great respect for Director, the 
present Secretary Paulson, I think he's going to do a great 
job. The first time that anybody has ever come from the ranks, 
though, first time that anybody was a firefighter, from the 
point of the fire agencies that we brought it. This is what I 
talk about with boots on the ground, so that bureaucrats are 
not telling us how to operate in our local communities. That's 
what's been going on.
    What is FEMA and the Department doing to ensure that 
governments are prepared for vast evacuations, and mass 
evacuations, of those that do not have the ways or means to 
evacuate themselves, or those that are dependent on others for 
evacuation, such as those confined to hospitals, nursing homes, 
assisted living facilities? We lost people, when looking back 
at Katrina, we lost people because there was either no central 
command or we couldn't get off the dime to make a decision. So, 
we left people in those hospitals and they died.
    Now, we are not that far from September, since last 
September, what have we done in the meantime to improve a lot 
so we can protect people and save their lives?
    Mr. Kempf. Well, as you'd said before, one thing that's 
most important to remember is that emergency management like 
politics is all local. So, we have to work with the State 
Office of Emergency Management, who then work with their local 
counterparts in the counties and municipalities, and, of 
course, within nursing homes, hospitals and so forth, to make 
sure that they have plans and preparedness to move people.
    Now, some of the things that come under consideration, of 
course, is people who are in weakened health conditions, there 
needs to be some medical judgments as to whether they should be 
moved relative to the risk that's facing them. For example, 
somebody is on a life support system, things of this nature. 
So, those all must be considered.
    Our agency, Region II, we just finished off on June 2nd one 
of our series of meetings with the Office of Emergency 
Management, Director Ca/as was there with us, State Police 
Colonel Fuentes and his staff, and one of the things we had 
addressed is the need for special needs populations. I'm very 
attuned to that being handicapped myself, and what are the 
types of needs that we would require to move people out, 
considering everything from early notice to move the people out 
of harm's way before things come in, beyond what we would do 
with the average public, if you will.
    Mr. Pascrell. But, whether it's manmade or whether it is 
nature itself, it would seem to that when a situation is so 
overwhelming that the Federal Government has a great 
responsibility, if you want to look at priorities.
    And when you say, well, we've got to work with the locals, 
we know that you have got to work with the locals, that should 
be done beforehand.
    Mr. Kempf. Which we are doing, that's right.
    Mr. Pascrell. And, you know, I'm sure we've learned from 
Katrina, but there's a lot of learning that has to go on here. 
I do think the Department is educable, and I do think that you 
have a good Director right now, and I thank you for answering 
the questions.
    And, I'll get to Mr. Beres when we get back around again.
    Mr. Reichert. Mr. Dent.
    Mr. Dent. Yes, Mr. Beres, I had talked to the previous 
panel, I don't know if you were here for that discussion.
    Mr. Beres. I was.
    Mr. Dent. OK.
    Some of the questions I had dealing with states like mine, 
of Pennsylvania, I'm not as clear on New Jersey, but the 
question was, you know, what, in your estimation, is the reason 
why so many of the states have not drawn down a large amount of 
their terrorism preparedness grants from those three funding 
programs, UASI, the State Homeland Grant Program, and the Law 
Enforcement Grant Program, what do you see as the reason for 
that bottleneck, and are they still using a large amount of 
those dollars, about a third as I last recall, for 
interoperability programs?
    Mr. Beres. Just the first question. There are several 
different issues that involve the drawn down of the dollars. 
Several of them have to do with primarily local procurement 
issues, with being able to actually get contracts out the door. 
Some of them are restricted to----
    Mr. Dent. What is that bottleneck, though, is that 
occurring in the state offices?
    Mr. Beres. That will occur at the actual local level, after 
the state has made a sub-grant award down to the lowest level. 
There's also issues at the state level, where many of the 
dollars that are granted to them have to go through an 
appropriations process at the state level, so before they can 
use them they have to be appropriated.
    But, I think overall, and this was mentioned in an 
Inspector General's report a year and a half ago, draw down 
itself is not a good indicator of the use of the funds 
necessarily. Director Ca/as here had mentioned that most of the 
funds, even at the local level, that they had sub-granted down, 
were obligated, so most people would not draw down any of the 
funds until they had actually taken receipt of the equipment or 
had conducted their exercise to pay their contractors, and 
these are two-year grants that involve planning, exercise and 
training, too, so you wouldn't expect all of the money to be 
drawn down until the end of that time.
    Mr. Dent. Can you talk a little bit about the trend in 
Homeland Security funding requests? Are these traditional 
equipment requests, other than interoperability, communications 
going down? And conversely, are you seeing more funding 
requests for planning, training and exercises?
    Mr. Beres. I have not--let me just put it this way, from 
`03 to `05 about $2 billion has been spent on interoperable 
communications.
    Mr. Dent. $2 billion?
    Mr. Beres. About $2 billion.
    I would have to go back and look at our data and run the 
data into different categories to answer that question 
thoroughly, and I'm happy to do that.
    Mr. Dent. OK.
    And, to Mr. Kempf, my only comment would be to you, I think 
Ranking Member Pascrell has talked about it, we all worry about 
this evacuation of the New York Metropolitan Area, and maybe 
Northern New Jersey, you know, can you just give us your 
observations as to where we are, and where we--or where we 
should be with respect to a major evacuation in this region, 
and what communities ought to be doing better than they are 
now?
    Mr. Kempf. Well, it's got to go without saying that any 
mass evacuation, especially the northern parts of New Jersey 
and the New York City confluence, is going to be quite 
difficult.
    The roadways will permit just a certain amount of vehicles 
to transport itself over a certain amount of time. The state 
has instituted reverse lane strategies and all the other types 
of strategies you would necessarily need.
    But, I think that the key thing that we have to look at 
here is the early notice and the confidence of the public to 
evacuate when it needs to. One of the misfortunes we have up in 
this part, especially with a hurricane, is that it will move 
very, very quickly, and people have to be willing to take an 
evacuation notice or order much earlier than we would otherwise 
anticipate in the southern regions, and that goes without 
saying for any fast moving terrorism attack or things of that 
nature.
    I do believe to the extent that it's humanly possible 
within the State of New Jersey that the State Police Office of 
Emergency Management has very effective plans and can handle a 
large-scale evacuation. Whether it's going to be able to so-
called empty the area in 24 hours, I doubt that, because of the 
limits of the roadway capabilities.
    But, for everything that can be done I believe, and I'm 
confident that they have done that.
    Mr. Dent. Thank you.
    I yield back.
    Mr. Reichert. Thank you, Mr. Dent.
    I have just a couple quick questions, Mr. Beres first.
    Secretary Ridge, in June of `04, recommended that the 
Department of Homeland Security institute, in coordination with 
state, county and local governments, municipal tribal 
governments also, a grant tracking system, automated grant 
tracking system. Is that in place today?
    Mr. Beres. We have a grant tracking system that collects 
immense amounts of data on expenditures, what people are 
spending their dollars are, who are--where they are spending 
it, who are the beneficiaries of it.
    What is missing, I believe, and Secretary Forsman testified 
to this in his last hearing, is actually, basically, a real-
time accounting system to determine where dollars actually are 
within a pipeline at any given time across the country.
    Mr. Reichert. And, when would that be expected to be in 
place?
    Mr. Beres. I do not know. We are working on developing 
right now a more formalized grant processing system, but I do 
not believe that will end up solving the problem of knowing 
exactly where all expenditures are throughout the pipeline. 
That really requires everyone to be pumping into the same 
accounting system nationally.
    Mr. Reichert. Would this be a critical part of the next 
evaluation of who gets grants and how grants are distributed 
across the country?
    Mr. Beres. I think we would more likely take a look at 
actual obligations we track, and then the types of things the 
funds are being used for.
    Mr. Reichert. OK.
    Mr. Kempf, preparedness is something that we, in the First 
Responders arena, do every day, we prepare, and as you know, as 
Mr. Chertoff took office, he separated response and 
preparedness. How do you see that, that reorganization, is that 
something that's a benefit, or should we go back to putting 
response and preparedness back together again?
    Mr. Kempf. Well, I still think, given the enormity of the 
task, and the vast amount of resources, and the new challenges 
that we face today, there probably are some very, very strong 
arguments to be made to keep response and preparedness within 
FEMA as a separate agency, just as there are for the current 
structure that Secretary Chertoff has developed.
    I think that the real key to--regardless of where it is, is 
the one that was discussed earlier, and that's the one of the 
relationships within organizations, whether we are attached to 
another organization, whether we are independent, doesn't 
really matter. When we have to work with other organizations, 
such as the Department of Defense and so on, we have to have 
those mechanisms in place, the relationships in place so that 
we can effectively move those resources and have a very, very 
clear picture and understanding of where we are taking those 
resources to.
    One of the effective things we've done under this current 
structure is to develop what's called the PFO, Principal 
Federal Official structure, and I also have with me a Deputy 
Principal Federal Office, Joe Peshano, who has been with the 
agency for, I think, 30 years and is Deputy Regional Director.
    We work with Admiral Pekosky from the U.S. Coast Guard, who 
is the lead PFO, and we all recognize that regardless of what 
structure we are working on, if we didn't have those plans in 
place, the preparedness thinking if you will, and the 
relationships to call up and say we need this, this is what's 
happening, it wouldn't work no matter what the structure was.
    So, I think it really comes down to, Mr. Chairman, is that 
it's almost a matter of perspective. You know, it's a glass 
half empty, glass half full type of an argument. I think some 
of the locals that I talk to all the time, some found this to 
be very effective and a very good way for them to get 
information, others like the comfort of the old system that 
they had worked on.
    Personally, I can work with this agency as it is structured 
today. We've been able to bring information down through our 
region, from Headquarters effectively into the state, and, 
sure, we have questions that we have to answer every once in a 
while, but we seem to be able to bridge those as we are 
learning through this system.
    Mr. Reichert. Great, thank you.
    Mr. Pascrell.
    Mr. Pascrell. Before I get to the funding, Mr. Chairman, I 
want to say to Mr. Kempf, I think it is the most ridiculous 
idea I've ever seen since I've been in the government that we 
have separated preparedness and response. Every time Mr. 
Chertoff explains to us it only gets worse. I think the 
sentiment, correct me if I'm wrong, Mr. Chairman, the sentiment 
is that we bring them together, and that they work together so 
that one hand knows what the other is doing. I think that this 
is a very, very important and critical point in discussing FEMA 
and where it works and where it hasn't worked. We know that 
FEMA can work, and it's done--a lot of people are hard-working 
people, as yourself, as like yourself, but I think if policies 
and the strategies from the top are wacky, and I hope you bring 
that back to Mr. Chertoff, although I've already told him to 
his face.
    Mr. Kempf. As long as they don't kill the messenger, sir.
    Mr. Pascrell. I want to talk about funding, Mr. Chairman. 
Mr. Forsman has spoken before the Congress, and now Mr. Beres, 
you guys are the messengers, so what I have to say has nothing 
to do with your service to your country. I respect it and thank 
you for it.
    But, the funding mechanism that is before us we need to 
understand, the public needs to understand, how it works. First 
of all, when you ask the question and we talk about draw down, 
this is a very different kind of program for Homeland Security, 
in that you have to spend the money first before you get it. 
That's the program, it's in the law.
    And so, much of the money is in the pipeline waiting to be 
delivered, but the municipality has not gotten what they paid 
for yet. They have applied to the Homeland Security for 
reimbursement, it's almost a reimbursement program.
    What would you think of this, Mr. Beres, that instead of 
this foolish program that we kept on debating in the Congress, 
that we use the program and we use the model of the Fire Act, 
or the COPS program, where the money goes directly to the 
municipality on a competitive based, based upon risk and 
vulnerability? We believe that much of the money should be 
based upon risk and vulnerability, and not population, and we 
still have a system where folks in Wyoming are getting more 
Homeland Security money per capita than we are in New York. 
That doesn't make any sense. I don't know how you justify it.
    I love the people in Wyoming, I want them to be protected, 
and we want to help them be protected, and the Federal 
Government has a responsibility to them. Don't tell me that we 
have to sacrifice.
    You know, the numbers in New York are astounding. You 
slashed their budget from $207 million to $124 million. I want 
to know how that makes New Jersey safe.
    Now, you approved, you increased the money to the Newark/
Jersey City region, and, of course, the ten mile parameter 
around it. Of course, you reduced the money for the entire 
State, so you have to tell people that. So, we come out with 
less money than even the same amount of money.
    I mean, you are not going to play games with these numbers 
anymore. What I find astonishing, what I find astonishing is, 
that many people lose cite of the fact that we shrunk the 
bottom line, we have a smaller pie to deal with. And, you've 
got to come up with ways to get the money, even though it's 
less money in totality, to as many communities that are 
vulnerable as possible.
    I understand that, we all understand that, but I also 
understand one thing, if New York isn't safer we are not safer 
on this side of the river, and I understand that, and I'm going 
to fight every possibility and every chance that I get to make 
sure that that funding is restored, because it's a matter of 
priorities.
    I want you to take this back to Mr. Chertoff, who comes 
from the State of New Jersey, who I supported when he was 
nominated for the job in the first place. But, you take this 
back to him, that I would rather provide--provide, the 
technical state of the art for our police and fire, the 
interoperability for our police and our fire, the training for 
our police and our fire, rather than give Barry Bonds a $72,000 
tax cut. If everything is a priority, nothing is a priority, 
and to me there is no greater priority than homeland security, 
you work on it every day, you do a great job. If I didn't feel 
so, I would tell you that, you know that.
    Mr. Beres. Thank you, sir.
    Mr. Pascrell. But, I am telling you, you've got to take it 
back to your boss, we've got to have him in front of our 
committee again. It's been a long time since he's been here, 
Chairman, and we've got to ask him those tough questions. I 
realize you can't even answer those questions.
    But, when everything is a priority, nothing is a priority. 
If this is a priority, if the safety of our public safety 
people out there every day, and we thank them all for their 
service, if that isn't a priority to us I don't know what is. I 
don't know what is.
    So, we don't have--do you know how the Federal budget was 
cut? Tell everybody here how much the Federal budget was cut, 
in terms of homeland security, the bottom line.
    Mr. Beres. The programs that I administer----
    Mr. Pascrell. No, not just what you administer, the bottom 
line budget.
    Mr. Beres. I'm not sure what the total bottom line budget 
on all of homeland security is in that number, but the amount 
of dollars that we ended up being appropriated was $500 million 
less for the Homeland Security Grant Program.
    Mr. Pascrell. $1.4 billion less when you add in all the----
    Now, let me ask you this final question, Mr. Chairman, if I 
will, are we less vulnerable and less at risk now, and is that 
why we cut those budgets?
    Mr. Beres. I don't think we are less at risk, no.
    Mr. Pascrell. I have no further questions.
    Mr. Reichert. Thank you, Mr. Pascrell.
    Mr. Dent.
    Mr. Dent. Thank you.
    Mr. Gramm, I'm just curious to hear your comments on what 
some of your members are doing. I know in New York, for 
example, CitiBank has an enormous security operation. I believe 
they may be the largest private sector employer in the City of 
New York, and I was just curious, you know, how you feel the 
level of interaction is between various major businesses in 
this region with the Homeland Security and public sector 
officials who are charged with keeping us safe.
    Mr. Gramm. Yes, and a lot of our businesses, based on their 
experience in New York, have gotten very, very aggressive and 
professional at the level of security and health concern kind 
of things that they are providing for their employees to 
protect the business, as part of the business continuity plans.
    We started out in New Jersey with some of those companies 
that have offices both in New York and New Jersey, and the 
initiation of the Business Force concept started with our 
meeting with state officials and the Attorney General's office, 
the Governor's office, Department of Health, New Jersey State 
Police, and asked them specifically what kinds of things did 
they see the private sector being involved with that could be 
helpful in the development of an effective partnership.
    They gave us certain things to do. We went out and our 
member companies in New Jersey are about 30, 32, and those 
companies funded initiatives, both in staff, and development of 
software, and processes and procedures, and then tested those 
out, and we are now in a position where we are ready to roll a 
lot of those things out through our members to the entire 
business community.
    So, the partnership is a growing one, and especially these 
days in light of pandemic flu, that this is getting a lot of 
attention from our Public Health officials, developing that 
partnership with the private sector companies, in order to help 
with things like distribution of medications.
    Mr. Dent. With respect to pandemic flu, do you notice that 
a lot of your members are stockpiling kamma flu and other 
antivirals or vaccines?
    Mr. Gramm. Not a lot at this point in time, but it is a 
consideration that's been talked about, yes.
    Mr. Dent. Thank you, Mr. Chairman.
    I yield back, have no further questions.
    Mr. Reichert. Well, I want to thank the witnesses, and I 
just want to comment, when I was the Sheriff I had the 
opportunity to sit on the panel and be quizzed by what we call 
in King County the County Council Members, and they are 
called--what are they called here--freeholders, and sometimes 
the freeholders or the County Council Members or Commissioners, 
in some areas of the country where there can be--they can offer 
some pressing questions. And so, when you are sitting over in 
this seat sometimes it can get hot. Some of you may have been 
in that position before, I just want to say thank you for being 
here, because I know sometimes you have tough questions to 
answer, but as Mr. Pascrell said, we appreciate you being here, 
we appreciate the service that you provide to our country and 
to our communities across the country, and good job.
    Thank you. Thank you all for being here, and without 
further objection this ends our hearing.
    [Whereupon, the subcommittee was adjourned].

                                 <all>

</pre></body></html>
